<html>
<title> - POVERTY IN AMERICA: ECONOMIC REALITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                


                 POVERTY IN AMERICA: ECONOMIC REALITIES

                         OF STRUGGLING FAMILIES

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, D.C., JUNE 19, 2019

                               __________

                           Serial No. 116-11

                               __________

           Printed for the use of the Committee on the Budget
           
           
           
           
           
           
           


     POVERTY IN AMERICA: ECONOMIC REALITIES OF STRUGGLING FAMILIES
     
     
     
     
  

                   




 
                 POVERTY IN AMERICA: ECONOMIC REALITIES

                         OF STRUGGLING FAMILIES

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, D.C., JUNE 19, 2019

                               __________

                           Serial No. 116-11

                               __________

           Printed for the use of the Committee on the Budget
           
           
           
           
           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 


                   Available on the Internet:
                       www.govinfo.gov                           
                
                           ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
37-722                  WASHINGTON : 2020                            
                            
                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
RO KHANNA, California                JASON SMITH, Missouri
ROSA L. DELAURO, Connecticut         BILL FLORES, Texas
LLOYD DOGGETT, Texas                 GEORGE HOLDING, North Carolina
DAVID E. PRICE, North Carolina       CHRIS STEWART, Utah
JANICE D. SCHAKOWSKY, Illinois       RALPH NORMAN, South Carolina
DANIEL T. KILDEE, Michigan           CHIP ROY, Texas
JIMMY PANETTA, California            DANIEL MEUSER, Pennsylvania
JOSEPH D. MORELLE, New York          WILLIAM R. TIMMONS IV, South 
STEVEN HORSFORD, Nevada                  Carolina
ROBERT C. ``BOBBY'' SCOTT, Virginia  DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas            KEVIN HERN, Oklahoma
BARBARA LEE, California              TIM BURCHETT, Tennessee
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee

                           Professional Staff

                      Ellen Balis, Staff Director
                  Dan Keniry, Minority Staff Director
                  
                                CONTENTS

                                                                   Page
Hearing held in Washington D.C., June 19, 2019...................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
        Documents submitted for the record.......................     7
    Hon. Steve Womack, Ranking Member, Committee on the Budget...   252
        Prepared statement of....................................   254
    Hon. Nancy Pelosi, Speaker of the House......................   256
        Prepared statement of....................................   259
    Rev. Dr. William J. Barber, II, Poor People's Campaign.......   263
        Prepared statement of....................................   265
    Rev. Dr. Liz Theoharis, Poor People's Campaign...............   268
        Prepared statement of....................................   270
    Callie Greer, Poor People's Campaign.........................   273
        Prepared statement of....................................   275
    Kenia Alcocer, Poor People's Campaign........................   277
        Prepared statement of....................................   279
    Christopher Overfelt, Poor People's Campaign.................   281
        Prepared statement of....................................   283
    Savannah Kinsey, Poor People's Campaign......................   285
        Prepared statement of....................................   287
    Pastor Latasha Fields, Christian Home Educators' Support 
      System (CHESS).............................................   289
        Prepared statement of....................................   292
    Pastor David Mahan, Frontline Youth Communications...........   296
        Prepared statement of....................................   299
    Hon. Barbara Lee, Member, Committee on the Budget, document 
      submitted for the record...................................   325
    Hon. Steven Horsford, Member, Committee on the Budget, letter 
      submitted for the record...................................   336
        Article submitted for the record.........................   339
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................   357
    Hon. Janice D. Schakowsky, Member, Committee on the Budget, 
      questions submitted for the record.........................   369
    Hon. Robert C. ``Bobby'' Scott, Member, Committee on the 
      Budget, questions submitted for the record.................   371
    Answers to questions submitted for the record................   372


     POVERTY IN AMERICA: ECONOMIC REALITIES OF STRUGGLING FAMILIES

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019

                          House of Representatives,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:11 a.m., in 
Room 210, Cannon House Office Building, Hon. John A. Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Jeffries, Boyle, Khanna, 
DeLauro, Doggett, Price, Kildee, Panetta, Morelle, Horsford, 
Scott, Lee, Jayapal, Sires, Peters, Cooper, Omar; Womack, 
Johnson, Smith, Flores, Meuser, Timmons, Crenshaw, Hern, 
Burchett, Roy, and Stewart.
    Also present: Speaker Pelosi.
    Chairman Yarmuth. The hearing will come to order. Good 
morning, and welcome to the Budget Committee's hearing on 
Poverty in America: Economic Realities of Struggling Families.
    I want to welcome our witnesses here with us today. This 
morning we will be hearing from several leaders from the Poor 
People's Campaign: Reverend Dr. William J. Barber, II; Reverend 
Dr. Liz Theoharis; Ms. Callie Greer; Ms. Kenia Alcocer; Mr. 
Christopher Overfelt; and Ms. Savannah Kinsey. We are also 
pleased to have Pastor Latasha Fields, from the Christian Home 
Educators' Support System, and Pastor David Mahan from 
Frontline Youth Communications.
    And we are also honored to have Speaker Nancy Pelosi with 
us this morning. And I ask unanimous consent that the Speaker 
be permitted to sit at the dais and participate in today's 
hearing.
    Without objection, so ordered.
    It also is possible that we will have votes during this 
hearing. I ask unanimous consent that the Chair be authorized 
to declare a recess at any time.
    Without objection, so ordered. I will now yield myself five 
minutes for my opening statement.
    Again, the hearing has come to order. Good morning, 
everyone, and thank you for joining us. I would like to welcome 
once again our panel of witnesses. We appreciate you coming 
here to help us engage in a meaningful discussion on the 
character of our country and the ongoing struggle with poverty 
and economic injustices faced by far too many Americans.
    I would also like to thank Congressman Barbara Lee--
Congresswoman Barbara Lee for her leadership on this issue, and 
her work to bring attention to this ongoing crisis through the 
Poverty Task Force.
    The statistics on poverty are jarring. As of 2017, 
according to the Census, nearly 40 million people, or more than 
one in 10 Americans, lives in poverty. But that number, as I 
know our witnesses will testify to, fails to account for the 
tens of millions of more Americans who still struggle to make 
ends meet. At the same time, 90 percent of households account 
for less than 23 percent of the nation's income.
    This past Sunday marked the longest period of time in U.S. 
history without an increase in the federal minimum wage, and 
overall wage growth, after adjusting for inflation, has 
remained nearly stagnant for 40 years. Meanwhile, housing 
prices have gone up. Prices have gone up dramatically in many 
areas of the country. Tuition costs have skyrocketed. And 
Americans are paying more for nearly every expense.
    These facts are important, but they tell only part of the 
story. The purpose of this hearing is to shine a light on the 
challenges that Americans face in meeting their basic human 
needs. We will hear from people who experience these challenges 
firsthand, and whose lives are directly impacted by the 
decisions and policies made in Washington. That is not to say 
that the federal government isn't already playing an important 
role in the lives of American families working their way up the 
economic ladder. Critical investments in federal programs have 
kept millions of Americans above the poverty line and have cut 
the poverty rate nearly in half over the last 50 years.
    Medicaid and CHIP provide health coverage to 73 million 
Americans, including more than one in three children. To date, 
33 states and the District of Columbia have expanded their 
Medicaid programs to low-income working-age adults, helping to 
bring the nation's uninsured rate to a record low. The 
Supplemental Nutrition Assistance Program, or SNAP, provides 
nutrition assistance to nearly 43 million Americans each month, 
including 1.4 million veterans. The Child Care and Development 
Block Grants supported nearly 800,000 families, ensuring 
children were cared for while parents worked to put food on the 
table. The Earned Income Tax Credit has lifted millions of 
workers out of poverty, instead of being taxed into it. And in 
2017 more than 5 million households received assistance with 
heating and cooling costs through the Low Income Home Energy 
Assistance Program, helping families stay safe and healthy.
    Though we need to be doing far more, not less. For decades 
efforts in Washington to close the gap between ongoing efforts 
to fight poverty and what is needed to fully address this 
crisis have been inadequate.
    But now these programs and the millions they serve are 
under constant attack. Rather than increasing investments and 
evidence-based programs that help more struggling Americans get 
ahead, the Administration is proposing to change the way they 
measure the poverty rate, and a backdoor attempt to cut off 
vital aid to potentially millions of Americans. There have also 
been consistent attempts by states to impose so-called work 
requirements on Medicaid recipients that only serve to deny 
health care to people. The governor of my home state, by his 
own admission, said his Medicaid waiver request will take 
potentially lifesaving health care coverage away from more than 
90,000 Kentuckians. And the Trump Administration hasn't stopped 
there. They have rescinded regulations on payday loan lenders 
that prey on those in poverty, proposed cuts of $220 billion to 
SNAP, and sought to eliminate LIHEAP.
    Many will differ on the role of the federal government in 
combating poverty. But we shouldn't differ on one concept: the 
more we can do to lift people out of poverty, the better our 
budgetary future will look. Poverty is more than just a policy 
issue; it is a challenge to the conscience of our nation. That 
is why I am thankful to have the opportunity today to learn 
about the real, everyday experiences of our witnesses, and to 
debunk some of the myths surrounding this vital issue.
    We need to be making a stronger investment in our people, 
all our people, so every American has the opportunity to thrive 
and succeed. I am sure we will hear a lot of ideas and 
different points of view today as we look at ways to help 
working families and struggling Americans, which is the point 
of this hearing. Whether it is practical, or aspirational, or 
even designed to take a sledgehammer to the status quo, we want 
to provide a platform for community leaders and those directly 
impacted by federal policies to share their ideas.
    Once again, I would like to thank the Poor People's 
Campaign and our witnesses for joining us. I look forward to 
your testimony.
    [The prepared statement of Chairman Yarmuth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Yarmuth. Now I ask unanimous consent to submit two 
documents from the Poor People's Campaign, the moral budget and 
the audit, in the record.
    Without objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Yarmuth. I now yield five minutes to the Ranking 
Member, Mr. Womack.
    Mr. Womack. I thank the Chairman. Good morning, everyone.
    Exploring ways to help lift people out of poverty is not 
new to this Committee. In fact, led by then-Committee Chairman 
Paul Ryan, budget Republicans have a long history of 
championing policies and programs that help low-income 
Americans climb the economic ladder, earn their own success, 
and escape the cycle of poverty. On this issue we often hear 
some of our friends across the aisle say that, the bigger the 
price tag, the better the policy. That may sound good on paper, 
but in practice it does not achieve the results Americans 
deserve, especially when it comes to reducing poverty.
    In 1964 President Lyndon Johnson declared the war on 
poverty with a goal of not only alleviating the symptoms of 
those in poverty, but also preventing poverty altogether. Since 
then the federal government has directed tens of trillions of 
dollars towards scores of anti-poverty programs across more 
than a dozen different agencies. Despite these investments, the 
poverty rate has only marginally declined. If history is any 
indicator, more spending, bigger government, and higher taxes--
those solutions that have far too often been proposed by some 
of my friends on the other side of the aisle--are not the tools 
we need to truly move the needle. Those may address what 
President Johnson called the symptoms of poverty, but they are 
not curing it.
    According to a recent poll by YouGov, 63 percent of 
Americans enrolled in some type of anti-poverty program believe 
the war on poverty is failing. The same poll found that 76 
percent of those enrolled in those programs believe the 
government should focus on creating more opportunities to climb 
the economic ladder, not increasing government spending.
    In fact, adding more dollar signs to our enormous debt will 
only lead to higher taxes. That often penalizes those who can 
least afford them, making it even harder to escape the cycle of 
poverty. I am especially concerned by the proposed tax 
increases on low-income Americans that many in Congress are 
considering, including new payroll taxes and energy taxes. They 
hit the vulnerable the hardest.
    So what has paved a pathway out of poverty for low-income 
Americans? I believe a strong economy, which creates more 
opportunities to find a job, earn a paycheck, get ahead. 
Following historic tax cuts and deregulation, families are 
seeing more jobs. They are seeing bigger paychecks, with 
average hourly earnings increasing by more than 3 percent, and 
the unemployment rate has dropped to 3.6 percent, its lowest 
level in a half-century.
    We should be focused on policies that continue this trend, 
and help more people earn their own success, linking--including 
linking more anti-poverty programs to employment opportunities. 
Serving our country has also paved a pathway out of poverty for 
many Americans. They have been given an education, learned 
skills that are applicable to business and other fields, they 
have learned leadership skills, and the value of working in 
teams. As someone who spent 30 years in uniform in the Arkansas 
National Guard, and as someone who chairs the Board of Visitors 
at the United States Military Academy at West Point, I have 
seen firsthand how our military has helped improve the lives of 
young men and women from challenging circumstances.
    And I know I am not alone. There are seven veterans and one 
member currently serving on this Committee: five, including 
myself on our side of the aisle; three on the Democrat side. 
And I would also like to take this opportunity to thank them 
for their service.
    Perhaps we can explore this notion of service for 
individuals and the opportunities made available later in life 
by the U.S. military as just one component of an anti-poverty 
program that I think that works.
    I also look forward to hearing about the roles of our 
families and communities, and their--that they are playing and 
helping reduce poverty, from providing on-the-job training 
opportunities, to counseling troubled youth, to ensuring young 
people have access to a quality education, regardless of their 
zip code.
    I don't think there is a person up here who doesn't want to 
help every American achieve the American Dream. But our success 
should not be measured by dollars spent or beneficiaries added. 
It should be measured by how many people we are helping lift 
permanently out of poverty so they can earn a living, provide a 
better life for themselves and their families.
    And with that, Mr. Chairman, I yield back my time.
    [The prepared statement of Steve Womack follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairman Yarmuth. I thank the Ranking Member for his 
opening remarks. I would now like to welcome the Speaker of the 
House, Nancy Pelosi, to our hearing today. Her continued 
dedication to helping the one in five children that live in 
poverty is what took her from kitchen to Congress, as she likes 
to say. And America's children have greatly benefitted from 
having such an advocate and leader in their corner. I am very 
pleased to now recognize the Speaker of the House, Nancy 
Pelosi, for her opening remarks.
    Speaker Pelosi. I thank you very much, Mr. Chairman, for 
your--of giving me the opportunity. I thank the bipartisan 
leadership of the Committee for the unanimous consent for the 
Speaker to be allowed to participate, to listen to the 
testimony, and to share a few thoughts with you.
    Mr. Chairman, you really--poverty in America, economic 
realities of struggling families, that being the title, I thank 
you so much for making this opportunity possible for us to 
hear. And with all due respect to the distinguished Ranking 
Member, after listening to his statement, all the more reason 
we need to hear from our witnesses as to how public policy 
affects them.
    The hearing is distinguished by the testimony of leaders of 
the Poor People's Campaign. We are grateful for the opportunity 
to listen and learn from Reverend William Barber, Reverend Dr. 
Liz Theoharis, and others. I associate myself with your welcome 
to them all.
    Last fall that Poor People's Campaign sent a letter to 
Congress, calling for a hearing on policy harming America's 
children. They wrote, ``Somebody has been hurting our children, 
and it has gone on far too long, and we won't be silent 
anymore.'' Well, we didn't get that hearing then. We had our 
own rump hearing. But now, today, thank you, Mr. Chairman, for 
making this hearing possible.
    As the Chairman said, my motivation to be in politics, my 
why for being in government and politics is the one in five 
children who lives in poverty in America. I have five--my 
husband and I have five children, we see what it takes to raise 
a family, and even under great circumstances there are 
challenges. And it just bothered me so that one in five 
children in America go to sleep hungry at night. How could this 
be in the greatest country that ever existed in the history of 
the world, that one in five children--at least--lives in 
poverty in America?
    And so we must have public policy that does better. And as 
the distinguished Ranking Member said, we still have 
challenges, even though we had a war on poverty. But just think 
of what the challenge would be if we had not had that war on 
poverty.
    And here we are in the Budget Committee. A budget, a 
federal budget, should be a statement of our national values. 
What is important to us as a nation should be reflected in how 
we allocate our resources. And we have to stand for the 
education and health, education and well-being of the--all of 
the American people in the budget we put forth. We must fight 
for investments in economic justice and human dignity, 
recognizing, as Dr. King said, that our struggle is for genuine 
equality, which means economic equality.
    Dr. King's words ring with the same resounding moral force 
today as he said, ``What does it profit a man to be able to eat 
at an integrated lunch counter, if he doesn't earn enough money 
to buy a hamburger and a cup of coffee?'' These words are 
echoed in the Poor People's Campaign's moral budget, which 
states everyone has a right to live.
    We thank the Poor People's Campaign for conducting your 
audit of injustices, the souls of poor folk, which presents a 
stark reminder of the challenges that remain today. Fifty-one 
years after Dr. King launched the Poor People's Campaign to 
fully, finally end poverty, 51 years after workers of every 
background marched for their dignity, bringing the priorities 
of America's neediest families to the nation's capital, 51 
years later, America is still a land of stunning injustice.
    Our work is far from done: 140 million Americans are poor 
in our country. As Members of Congress we have an urgent moral 
duty to make good on the promissory note of the rights 
enshrined in our founding documents. Our nation's founding 
ideals, liberty and justice for all, can only be fulfilled if 
we have economic justice led by a government that is in the 
public interest, not the special interest. And that is why we 
are grateful for the consideration here of a budget.
    Just to remind, education is so central to the economic 
well-being of America's children and working families. Nothing 
brings more money to the treasury, nothing brings more money to 
the treasury than investments in education and early childhood 
K through 12, higher ed, like post-grad, lifetime learning for 
our workers. This is the investment that people want to make in 
their children, that our country must make in our future. And 
it is an investment that has a return.
    Medicare, Medicaid initiatives that have helped meet the 
needs of America's working families are so important, and 
should be not--should not be undermined in any budget. And the 
distinguished Ranking Member mentioned increasing the national 
debt. We certainly should not have a budget that gives a tax 
break to the--83 percent of the benefits to the top 1 percent, 
while adding $2 trillion to the national debt, adding to the 
debt that will be incurred by our children.
    Our children, our children, our children. When people ask 
what are the three most important issues facing the Congress, I 
always say the same thing. Our children, our children, our 
children, their health, their education, the economic success--
security of their families, and a safe environment. 
Environmental justice is so important that we focused on in our 
last hearing. Environmental justice, clean air, clean water for 
them to thrive in a world at peace in which they can reach 
their fulfillment.
    And so--and I am proud to be here to offer some element of 
concern, confident in our commitment to ending poverty in 
America, led by our distinguished Chair of our Steering 
Committee, Barbara Lee, a Member of this Budget Committee, 
confident about what we believe in and what we want to do, 
humble enough to listen to how public policy has an impact, and 
to listen to more--newer, fresher ideas, fresh eyes on the 
subject from where it is most felt.
    So we want to again thank the Chairman, and also call upon 
our Republican colleagues to help us with issues like raising 
the minimum wage, lowering the cost of prescription drugs, 
issues like that which raise the paycheck, lower costs to 
families. In our work we must be one, coming together in a 
spirit of dangerous unselfishness.
    The Congress cannot succeed in our inside maneuvering 
without the outside mobilization. We will make our legislation 
for the good of the American people and our children. That is 
being rejected by the Senate, too hot for them to handle--by 
public believing in and having confidence in the public 
sentiment to make the Senate accountable as well, when it comes 
to meeting the needs of America's working families, and 
reducing the level of poverty in our country, and reducing the 
number of poor people in our country.
    Your contribution, intellectual contribution, to us today 
is immeasurable. We are grateful to you for it, but, more 
importantly, for the work that you do every day to meet the 
needs of America's working families, especially those on the 
border line, or live in poverty on the border line of being 
poor in our country. It is an injustice. We must address it, 
and we must address it in a way that is respectful of the 
dignity and worth of every person, the spark of divinity that 
exists in every person, so that we are respectful of other 
views.
    And Mr. Womack, I say to you I am guided by the words of 
our founder, ``E pluribus unum,'' from many, one. They couldn't 
imagine how many we would be, or how different we would be from 
each other. But we knew that, in striving for solutions, we had 
to be unifying and not dividing. And it is in that spirit of 
`dangerous unselfishness' and welcome our guests.
    Thank you, Mr. Yarmuth, Mr. Chairman, and Mr. Womack, for 
providing us with this opportunity. Thank you.
    [The prepared statement of Nancy Pelosi follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Yarmuth. Thank you, Madam Speaker, for your 
remarks. In the interest of time, if any other member has an 
opening statement, you may submit that statement in writing for 
the record.
    Once again, I would like to thank our witnesses for being 
here this morning. The Committee has received your written 
statements. They will be made part of the formal hearing 
record. Each of you will have five minutes to testify.
    First we will recognize Dr. Barber.
    You may begin when you are ready. You are recognized for 
five minutes.

  STATEMENT OF REV. DR. WILLIAM J. BARBER, II, POOR PEOPLE'S 
   CAMPAIGN; REV. DR. LIZ THEOHARIS, POOR PEOPLE'S CAMPAIGN; 
   CALLIE GREER, POOR PEOPLE'S CAMPAIGN; KENIA ALCOCER, POOR 
    PEOPLE'S CAMPAIGN; CHRISTOPHER OVERFELT, POOR PEOPLE'S 
   CAMPAIGN; SAVANNAH KINSEY, POOR PEOPLE'S CAMPAIGN; PASTOR 
   LATASHA FIELDS, CHRISTIAN HOME EDUCATORS' SUPPORT SYSTEM 
(CHESS); AND PASTOR DAVID MAHAN, FRONTLINE YOUTH COMMUNICATIONS

          STATEMENT OF REV. DR. WILLIAM J. BARBER, II

    Rev. Dr. Barber. Chairman Yarmuth and Ranking Member Womack 
and Members of this Committee, I am Reverend Dr. William J. 
Barber, II, from North Carolina. I am the son of a Navy man who 
gave first-class service for--first-class blood and service for 
second-class citizenship. I am here as part African-American, 
part Tuscaroran, and part white, so I am diversity looking 
directly at you.
    I am also speaking here today on the thousands of people of 
every race, creed, and color, gender, and sexuality in the 40 
states and District of Columbia that are part of the Poor 
People's Campaign, a national call for a moral revival.
    I want it to be acknowledged today that I--we are here on 
the 150th year anniversary of Juneteenth, when slaves finally 
found out that the Emancipation Proclamation had been written. 
And here, 51 years after the Poor People's Campaign, it is time 
for Americans to find out the truth about poverty for all 
Americans.
    The growing gap between the rich and the poor in this 
country is a direct result of policy decisions, not the 
immorality and the lack of personal work of poor people, policy 
decisions made here in Washington and in our state capitals. 
But those decisions have been supported by well-funded myths. 
Corporate interests have sent their representatives here to 
preach personal responsibility and the danger of government 
intervention. But the truth is we must take a collective 
responsibility for the inequality, the unjust laws and systems 
created. God did not make us poor. Greed and abuse and power 
make us poor.
    In this hearing room you are seated here as Members of 
Congress on the left and on the right, demanding--on party 
affiliation. Our campaign agenda is neither left nor right. It 
aims to challenge both sides of the aisle. It aims to reach 
toward the moral high ground. The agenda is rooted in the 
religious values of the prophet of Isaiah, that every 
legislator ought to hear again, since you put your hands on the 
Bible to swear yourselves into office. Woe unto those who 
legislate evil and rob the poor of their rights and make women 
and children their prey.
    You should hear what Jesus said, not to churches and 
personal charity, but to nations: ``When I was hungry, did you 
feed me? When I was a stranger, an immigrant, did you receive 
me? When I was sick, did you care for me?'' Because every 
nation will be judged by God for how it treats the least of 
these.
    Our religious values are--call us--and our constitutional 
values, which call us to the issue of justice, establishing 
justice, to put the marginalized and the poor at the center of 
our public policy.
    We began three years ago. We have been all over this 
country, from Kansas, to Arizona, to eastern Kentucky, to 
eastern North Carolina. We have met with Republicans, and 
Democrats, and blacks, and whites, and gay, and straight, and 
all of them are saying the 140 million--we first must get the 
numbers right, it is 140 million poor and low-wealth people in 
this country. There are 140 million: 39 million children, 21 
million seniors, 65.8 million men, 74 million women, 26 million 
black people, 38 million Latinx people, 8 million Asian people, 
2.4 native and indigenous people, and 66 million white people, 
and they are not poor because they are lazy or because they 
don't engage in personal responsibility.
    They are poor because of the systemic realities that 
connect: systemic racism, systemic poverty, ecological 
devastation, the war economy, and the false moral narratives 
that suggest that somehow you can ignore poverty, ignore 
poverty.
    We must count 43.5 percent of our nation. No nation can 
survive when 43.5 percent of its people are poor and low wealth 
and that is not at the center of our public discussions. Sixty-
two million people who work every day for less than a living 
wage, 37 million people without health care, even with the 
Affordable Care Act. And I am from the South, where 50--where 
one-third of all the poor people live, and it is almost even, 
black and white. Fifty-some million poor people and low-income 
people, and 13 million people uninsured.
    Poverty is a moral crisis. The federal government, state 
governments, we do not need more tax cuts for the rich. We do 
not need more missiles. We need to hear and see the voices and 
faces of the poverty. We must end this systemic policy violence 
against poor and low-wealth people.
    This is the moral mandate for our nation at this moment. 
The work of reconstructing America is not done, and we must do 
it together, and nothing less than the promise of our democracy 
is at stake. To not deal with poverty is constitutionally 
inconsistent, it is economically insane, and it is morally, 
morally, morally wrong.
    Thank you.
    [The prepared statement of Rev. Dr. William J. Barber 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Yarmuth. Thank you for your testimony.
    I now recognize Reverend Dr. Theoharis for five minutes.

              STATEMENT OF REV. DR. LIZ THEOHARIS

    Rev. Dr. Theoharis. Thank you, Chairman Yarmuth, Ranking 
Member Womack, and Members of this Committee for this 
opportunity to speak with you today.
    I come to you this morning an ordained minister, a biblical 
scholar, and someone who has been organizing amongst the poor 
and homeless for over 25 years, first with the National Union 
of the Homeless, the National Welfare Rights Union, and today, 
proudly, with the Poor People's Campaign, a national call for 
moral revival.
    Over the past years the Poor People's Campaign has been 
building committees of poor and dispossessed people, moral 
leaders, activists, advocates in more than 40 states across 
this country. We have met with tens of thousands, hundreds of 
thousands of people, and chronicled their demands for a better 
society. We have spent time in my home state of Wisconsin, 
where the safety net has been shredded over the past decade. 
Families go without water and heat, even in the cold winter.
    We have been in Crossett, Arkansas, where a whole town has 
been poisoned by a paper plant. Grandparents have to meet their 
grandkids 80 miles from home, just to make sure they are not 
exposed to those toxins.
    We have been in Pacoima, California, where one in four 
children in the Telfair Elementary School are homeless, are 
without a home, and Altoona, Pennsylvania, where children, 
young children, babies, are being taken away from their parents 
who love them, who care for them, who want to raise them, 
because they can't pay some of the highest water bills in the 
country.
    Together we developed a moral agenda, a moral agenda that 
calls for the elimination of systemic racism, and poverty, 
ecological devastation, and militarism in the war economy. It 
calls for a challenge of this distorted moral narrative that 
blames the poor for our poverty, tries to pit us against each 
other, and feeds us the lie that there isn't enough when we 
have beautiful, God-given abundance in this world.
    You on this Budget Committee know that talk is cheap. 
Ultimately, it is our deeds that matter. Budgets reflect our 
deepest values, our most important priorities. And we are here 
to say this morning that our nation's budget, as it now stands, 
reflects the values of the rich, of large corporations, of 
military contractors at the expense of poor, suffering 
children, families.
    We are here to say that we need a moral revolution of 
values that places the needs and demands of the poor and at 
the--of the planet at the heart of the budget. This will create 
more jobs, build up our infrastructure, strengthen our economy, 
and protect our resources today and for future generations. 
When you lift from the bottom, everybody rises.
    So I know this from economics and social science. I have 
also read it in the Bible. Deuteronomy says if you forgive 
debts, and you increase programs that lift up the poor, if you 
pay your workers a living wage, and you release those who are 
oppressed, if you lend out money knowing you may not get paid 
back, your whole society will be lifted up. Your whole nation 
will flourish.
    Poverty is people's creation. It is their creation of 
immoral budgets and unjust policies. And we can choose to end 
it. The poor will only be with us as long as we are disobedient 
to God and to the founding creed of this nation.
    Thank you for listening.
    [The prepared statement of Rev. Dr. Liz Theoharis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairman Yarmuth. Thank you for your testimony.
    I now recognize Ms. Callie Greer for five minutes.

                   STATEMENT OF CALLIE GREER

    Ms. Greer. Thank you, Members of the Committee. Thank you, 
Committee, for having me here today. My name is Callie Greer. I 
am a mother of five. And I have lost two of my children for 
unnecessary reasons. I am here to talk about Venus.
    Venus should be here with us today. So Venus started 
complaining about a little knot she had on her breast. And so 
she wasn't employed, and didn't have any insurance. She 
started--she did what we do in our community, she started 
visiting an emergency room. And so she would go, and they would 
just send her out, and she kept complaining about the knot, and 
they didn't do anything for her for a while.
    Then one night she went to the emergency room, and the 
doctor walked in the room, and he is like, ``What is that 
smell?''
    And Venus said, ``It is my breast. It is rottening (sic).''
    So that is when Venus got some help. She was diagnosed with 
stage four cancer, and was sent to the counsel center, and she 
had a radical mastectomy, and went into chemo and radiation. 
For a while Venus was in remission. About six months later she 
went back, and the cancer was everywhere. She had spots on her 
lung, on bones, on her liver.
    And so Venus had to have a lot of medications and 
treatments from the doctors. But everything Venus had to--was--
needed, she had to be approved for it. She had to wait to be 
approved for the medication. So she would wait weeks and 
sometimes months to get things that she needed.
    Well, one of the hardest parts of that was for my husband. 
When Venus was waiting for oxygen, she had to wait about two 
months for the oxygen. But during that time they had--around 
the house, yes, so that was real hard on him, to have to carry 
his baby around the house. And every time he picked her up she 
was lighter and lighter and lighter.
    So one day Venus--one Friday Venus came to sit in the chair 
of the living room, and she said, ``Mama,'' she said, ``My head 
hurts me so bad I can't see.''
    So we went--we took her to the counsel center, and they 
rushed her to the emergency room. And she had been waiting on a 
CAT scan that she hadn't gotten. So when we got her there she 
lapsed into a coma. She got the CAT scan. She had two tumors in 
her head, and one had ruptured. She was brain dead.
    So--yes. Where I live we can't just get a mammogram. You 
have to have a prescription. So since she didn't have a doctor, 
she couldn't get the mammogram. But if she had had a doctor, if 
she had, Venus would be here with us.
    How much would you pay to have your baby saved? You got a 
dollar sign out of the top of your head? Got a number, how much 
you--because Venus should be here. She should not--I should not 
be here. So, since she is not here, I am here for her. And I am 
here for the other 140 million people that are struggling and 
bearing our babies because they don't have health care 
insurance, something that we shouldn't have to ask for.
    We shouldn't have to ask for this, something that you 
wouldn't even take this job if couldn't get. We shouldn't have 
to ask for this. It is a human right. We shouldn't be bearing 
our babies like this.
    I am a little off-script, but I just wanted to let you know 
that I am here with the Poor People's Campaign, and I am 
fighting this fight. And I am representing 140 million people 
today, 140 million. And we are here. We ain't going nowhere. 
Thank you.
    [The prepared statement of Callie Greer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

      Chairman Yarmuth. Thank you, Ms. Greer.
    I now recognize Ms. Alcocer for five minutes.

                   STATEMENT OF KENIA ALCOCER

    Ms. Alcocer. Thank you, Members of the Committee for this 
opportunity. My name is Kenia Alcocer.
    I came to this country from Guerrero--Acapulco Guerrero, 
Mexico as a small child, because my mother was escaping 
poverty. She wanted to give me and my sisters a better life, 
and she worked very, very hard for it, sometimes working two to 
three jobs at a time. She was a cook in two restaurants, and 
was a caretaker for an elderly family, an elderly couple. When 
she would lose a job she would do anything to make sure that we 
were provided for. She was even a street vendor at times.
    Families like mine are very common and have many 
challenges. Because of poverty and systemic racism, families 
who are undocumented often have to do multiple jobs, get paid 
under the table, and often that comes with discrimination and 
mistreatment. To get by, people in our community have to create 
survival methods, such as getting together to share meals, 
taking care of each other's children, and creating a community 
around us to make sure that we have safety nets.
    Today I have come from east Los Angeles because I must 
fight to advocate for my daughter, all children in my 
community. No parent should live with the fear of having their 
children be taken away from them. I sometimes have that fear 
that immigration officers might come and take me away, and that 
my child will be ripped from my arms. I fight for the day when 
no child has to worry about clean water, a good education, or 
health care.
    As Members of the Budget Committee, you have tremendous 
power to shift U.S. priorities in ways that it would help 140 
million poor and low-income people, and for them to have better 
lives.
    You could decide, for example, that it is more important to 
put children into Head Start than into detention centers. Last 
year, one of the corporations that operate detention centers 
got $234 million to buy beds for children. With that money you 
could have found Head Start for more than 26,000 children.
    One policy gives children lifelong benefits; the other one 
destroys lives. In fact, we have had five children die in 
detention centers this year. Thousands are being traumatized. 
You could decide that it is more important to send children to 
college than to send ICE agents to raid workplaces and separate 
families. Many poor people like me would like to go to college, 
but we know that there is not enough financial support, even 
though we know that the benefits of public investment in higher 
education far outweighs the cost.
    Meanwhile, the government has had no trouble finding money 
to stop people from pursuing the right to live with dignity and 
humanity. The United States spends more money, eight times more 
money, on immigration deportation and border policies per year 
now than it did in 1976.
    President Trump would like to spend tens of billions of 
dollars on a border wall. He claims immigrants are an economic 
burden, that we steal jobs, and public assistance money. The 
exact opposite is true. The Congressional Budget Office found 
that, if the United States accepted more immigrants, it would 
create--and created a path to a legal status, the benefits 
would outweigh the costs by nearly $20 billion a year.
    Immigrants contribute to the society every day. They work 
in your communities. They are the gardeners that are mowing 
your lawn, the cooks, like my mother, that are preparing your 
food, the farm workers who are picking your fruits and 
vegetables, the nannies who are raising your children. Many of 
us have been forced to become leaders in our communities to 
advocate for our rights and to fight to have a life that we are 
not just surviving through, but that we are able to live 
through with dignity.
    I am co-director of Union de Vecinos, and I am the Chair of 
the California Poor People's Campaign, a national call for 
moral revival. And we are joining a larger community, a 
community of poor and dispossessed across this country that are 
yelling and screaming at you. We are the Poor People's 
Campaign, a national call for moral revival, and we need you.
    You have been elected to guide this nation. And today we 
are here to tell you that we need you to end this war economy. 
You hold in your hand not just the power, but the lives of 
millions of poor people.
    My mother crossed a desert to give me a life with dignity 
and basic human needs: a home, food, and education. I will 
continue to fight to make sure everybody lives without poverty, 
systemic racism, ecological devastation, and a violent war 
economy. And I hope you will, too. Thank you.
    [The prepared statement of Kenia Alcocer follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairman Yarmuth. Thank you for your testimony.
    I now recognize Mr. Overfelt for five minutes.

               STATEMENT OF CHRISTOPHER OVERFELT

    Mr. Overfelt. My name is Chris Overfelt, and I am with 
Veterans for Peace. Thank you, Mr. Yarmuth and Mr. Womack. I 
want you to know that there is not a day in my life that I am 
not grateful to live under a representative government. Thank 
you to all of the leaders here.
    I want to say that I am not here to try and make you think 
a certain way. I am here to present a different side of the 
conversation, and you can decide what you think is right. It is 
vital to our democracy that we can disagree and still respect 
one another.
    I was an aircraft mechanic in the Air Force National Guard. 
I was based at Forbes Field in Topeka, Kansas from 2002 to 
2011. I worked on the KC-135 aircraft, the airplane that 
refuels other planes in the air, and I deployed to Turkey and 
Qatar during the Iraq and Afghanistan wars. Neither of these 
countries will likely recover from that devastation in my 
lifetime. Nothing I can do in my life will make up for the 
hundreds of thousands of Iraqi and Afghan men, women, and 
children killed in these useless wars.
    Since our invasion of these countries, terrorism has 
proliferated tenfold around the world. When I joined the 
military I had no idea that never in its history has the 
Department of Defense done an internal audit of its spending, 
despite it being mandated by law. It doesn't know how much 
money it is spending, and it doesn't know how it is spending 
it. It is a black hole for money.
    A 2016 inspector general's report revealed that, over the 
past two decades, the Pentagon cannot account for how it spent 
$6.5 trillion. The Pentagon budget routinely accounts for half 
of the federal discretionary budget. It is no secret that there 
is always enough money for weapons and jails, and never enough 
for education and the poor. Instead of this money going to 
health care and education for our citizens who so desperately 
need it, it goes to Boeing, it goes to Lockheed Martin, it goes 
to Raytheon, it goes to Northrop Grumman, and the list goes on 
and on and on.
    When I joined the military I had no idea that we have 800 
military bases, worldwide. Why do we keep such a strong 
presence throughout the world? It's not to keep us safe. It is 
to provide western capital with continuous access to foreign 
resources and markets. Most of the military budget is used, not 
to fight wars, but to exercise soft power in the support of 
American capital.
    When I joined the military I had no idea that all across 
the world the United States supports fascist governments 
through military training and arms deals, to ensure that they 
serve the interests of foreign capital, and not the people that 
they rule over. Honduras, Guatemala, Colombia, Egypt, Saudi 
Arabia, Qatar, UAE, and Bahrain, the list goes on and on. And I 
want to be clear: This does not make us safe, it makes us less 
safe.
    And Mr. Womack, I appreciate your comments about getting 
job skills from the military. I am very grateful for getting my 
education and my skills as a mechanic, and the mentorship I 
received from the great people in the military. But we do not 
have to use systems of violence and brutality to try and 
alleviate poverty here at home.
    When I left the military in 2011 I began substitute 
teaching in Kansas City, and working at an agricultural 
mentorship for young people. I've met people here who have also 
suffered from these wars and the misplaced spending priorities 
that support them. On my farm and in my classroom in Kansas 
City I work with communities that are in direct need of 
funding. Instead of health care, schools, and early childhood 
education programs, they only get a militarized police force 
and punitive mass incarceration programs.
    Thirty-nine percent Missourians are low-income, and black 
residents are incarcerated four times the rate of white 
residents.
    We need to change the war economy, and use these funds to 
provide health care and education to everyone. The moral budget 
says we can save $350 billion by redirecting our foreign policy 
away from war and militarism, closing our overseas bases, and 
refusing to subsidize military contractors. We can also cut 25 
percent of the $179 billion spent on mass incarceration in the 
form of police courts and private contractors.
    I want to end by saying that I come here to ask that we 
stop funding systems of violence and brutality, and start 
funding systems of love that support people in our communities. 
Thank you.
    [The prepared statement of Christopher Overfelt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Chairman Yarmuth. Thank you for your testimony.
    And now I recognize Ms. Kinsey for five minutes.

                  STATEMENT OF SAVANNAH KINSEY

    Ms. Kinsey. Thank you. My name is Savannah Kinsey, and I 
want to thank you for this opportunity. I am 22 years old, a 
member of the LGBTQ community, and I am from Johnstown, 
Pennsylvania, which is a town of about 20,000 people in western 
Pennsylvania. The population of Johnstown is about 77 percent 
white, 14 percent African-American, and 4 percent Latino. I 
graduated from Greater Johnstown High in 2014, and even though 
I graduated, everyday life is still very challenging. This is 
because the school system is very flawed and doesn't teach the 
real history of this country.
    Education should teach all of us to hear and understand 
everyone's differences and backgrounds that they have come 
from. Johnstown used to be a booming steel mill town, but once 
the mills closed it went downhill. If you have ever heard of my 
town at all, it is probably because of our opioid problem.
    I have known a few people who have died, including my 
friend Nycki. She was poor, like a lot of people in Johnstown. 
In fact, Johnstown has the highest poverty rate of any town in 
the state: 38 percent of all people, and 63 percent of people 
under 18 are living below the official poverty line. Nycki 
turned to drugs, and that led to going in and out of jail. She 
never got the treatment she needed, and when she overdosed two 
years ago she left behind a four-year-old daughter. Nycki was 
just 26 years old.
    Some people say us young people are lazy. But that is not 
true. Johnstown just doesn't have enough jobs to pay--enough 
jobs that pay to live on. I am on disability and Medicaid, and 
I am grateful for the help that I get, but it is not enough to 
get by. And last year, out of nowhere, my benefits got cut down 
to $15 a month. I have tried asking why this was, and can never 
get an answer from anybody.
    At the grocery store I sometimes have to put food back, or 
add the charge to my credit card debt, because I don't have the 
cash. What is going to happen when all of my credit card debt 
is maxed out, and still don't have the cash?
    I am not the only person in this boat that is sinking. 
There is many others out there, too.
    What has really helped me lower my anxiety is getting 
involved with Put People First!, PA. This is a group that gives 
people like me the opportunity to organize to make things 
better. To be honest, it has really become like family. I co-
coordinate our health care rights committee in Johnstown, and I 
often go door to door, talking to people about the need for 
health care for all. It is hard work, but I love the challenge 
of trying to persuade people to have hope, and that we can 
improve the situation.
    What makes me sad is when I talk to people who say there is 
no poverty problem in Johnstown, and that they have been told 
that if you are poor it is your own fault, or that you should 
just work harder. Or they say that immigrants are the problem. 
The real problem, I believe, is that a few people are getting 
very rich, while poor people in towns like Johnstown are just 
forgotten about.
    Last fall Put People First! PA organized demonstrations 
against health care companies, and one was at Conemaugh 
Hospital owned by Duke LifePoint in Johnstown. Do you know how 
much the CEO of Duke LifePoint made in 2017? More than $13 
million. Meanwhile, people, including some of my own family 
members, have gotten poor care at that hospital, which has a 
one out of five-star rating on Medicare.gov. Nobody should get 
that rich off of a health care system that is not even working.
    And the problems are not just in Johnstown, either. Can you 
believe that the life expectancy in the United States is 
actually declining because of all the drug overdoses? Life 
expectancy for African-Americans in Johnstown is just 64.8 
years, almost 15 years below the national average. That is just 
crazy.
    We need to make health care a right with universal health 
care for all. And we need more public investment in communities 
like Johnstown, so that everyone has the opportunity to a 
secure, dignified life, not just the few wealthy at the top.
    Thank you again for the opportunity to speak with you all 
today.
    [The prepared statement of Savannah Kinsey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
       
    Chairman Yarmuth. Thank you for your testimony.
    I now recognize Pastor Fields for five minutes.

                  STATEMENT OF LATASHA FIELDS

    Rev. Fields. Thank you. Good morning. My name is Latasha 
Fields. I am the founder of Christian Home Educators' Support 
System in Chicago, Illinois. I want to thank Chairman Yarmuth 
for having me, the Ranking Member Womack, and Members of 
Congress. It is a blessing to be here today.
    I have been married to Ronald Fields, II, for 13-and-half 
years. We are home educators of four wonderful children. I have 
two girls, 22 and three, and two boys, 12 and nine. My husband 
I were both born and raised in Baton Rouge, Louisiana. I spent 
33 years there before I came to move to Chicago, Illinois 
seven-and-half years ago to expand our evangelistic work. We 
serve as the overseers and pastors of Our Report Ministries and 
Publications in Chicago. I am also the founder of Christian 
Home Educator, which is a homeschool academy, and Christian 
Home Support System, which is our support group.
    These are evangelistic outreach ministries to serve and 
support the families of the City of Chicago and surrounding 
communities. We provide assistance, resources of our home 
education, cooperative educational and recreational resources, 
curriculum, and parental rights issues, and much more. Our 
mission is to empower parents to take back the responsibility 
of educating their children.
    I am also the state coordinator of parentalrights.org, a 
volunteer of Junior Achievement of Chicago, and a member of 
CURE Clergy Network. I also have over 19 years of 
entrepreneurial experience, with 14 of those years being 
concentrated in the real estate industry, and several 
certifications in property management and non-profit housing. I 
am also a recent graduate of Trinity Christian College in Palo 
Heights, Illinois, with a bachelor's degree in business 
administration with a 4.0 GPA.
    So let me tell you a little bit about my journey, which is 
nothing short of the grace of God towards me. My grandmother, 
who raised me, also raised nine kids of her own, was a 
homeowner living in a poor, black, drug-infested community in 
Baton Rouge, Louisiana. She raised me and my younger sister. My 
mom was a teenage mom on drugs in and out of prison. My 
grandmother was a strong woman, hardworking woman. She showed 
tough love and had amazing, independent work ethics.
    So I basically grew up in a typical black community 
surrounding me, the lack of motivation for education, 
promiscuous behavior, drugs, crime, and some on welfare. In 
spite of the circumstance that surrounded my childhood, I was 
one that often fought against the odds. I had a love for 
education. I never did drugs, and I never committed a crime. 
But however, I did fall into promiscuous behavior. And at the 
age of 17 I became a teenage mom.
    This was the turning point of my life. I will never forget 
the day that I found that I was pregnant. I went into a Planned 
Parenthood in my neighborhood. I was devastated, I was 
frightened, and I was scared, because I was one of those kids 
that excelled in school, was popular in school, played sports, 
was on the homecoming court. You name it, I was in it.
    So basically, I kept myself from the normalized behaviors 
that plagued the black community. So becoming pregnant was 
embarrassing to me. I didn't want to be like the rest. I had 
always strived to be better. I didn't want to be like the 
social norm. I didn't want to be another statistic. I didn't 
want to be the 72 percent of moms raising a child single.
    So, while waiting for the result of my pregnancy test, I 
was crying. I was thinking how I had ruined my life. The nurse 
came back in the room and she told me that I was three weeks' 
pregnant, and she consulted me that I had another choice. I had 
a choice to abort my baby.
    In that very moment, my life flashed before my eyes because 
I had a big decision to make. Do I get rid of my baby, and 
proceed as normal, as though nothing happened, and go back to 
my family and friends and continue to live out my life? Or do I 
live the rest of my life knowing I had killed my baby? Do I 
keep my baby, and face the challenges that lie ahead of me, and 
press past the shame, the regret, and the disappointment?
    I chose the latter. I chose to do what I will always hear 
my grandmother say: You make your bed hard, you lie in it. 
Those words rang loud and clear in my heart and mind. Yes, we 
did this. No one else is responsible for the choice we made. I 
must take responsibility for my actions and live with it, live 
the best possible life I can, give my child the best possible 
life I can, finish high school, go to college, and make 
something of myself.
    I decided, in spite of my teenage pregnancy, that I would 
continue to press past the popularized social norms of the 
black community. I worked hard, I graduated from high school 
five months pregnant. During my teenage years I worked at 
Burger King. I was a part of an entrepreneurial program that we 
had. I worked throughout my high school years, from 15 until I 
graduated, but I was a mom, so I had to continue working at 
Burger King to provide for myself and my baby.
    My--I lived with my grandmother for several months after I 
had her, and she encouraged me to get on food stamps, to 
receive week--to receive child care assistance. During this 
time she also helped me to get my first apartment.
    After about nine months of renting, the real estate company 
asked me did I want to buy a house. I was shocked. I was 
excited. I went to the first-time home buyers program, and I 
purchased a three-bedroom, one bath house at 18 years old. 
After two years of being on food stamps, I found myself 
increasingly growing to hate the program. I felt awful while I 
was on the program. It was such a level of disrespect and 
deprivation. I couldn't take it any longer. I removed myself 
from the food stamp program. But however, due to me working and 
going to college, I had to remain on child care assistance.
    After having my baby in 1996, buying my home in 1997, the 
same real estate company offered me a job. I became a 
secretary, later a rental assistant manager, and later, in 
December of 2005, I became a licensed real estate agent.
    However, from 1996 to early 2005 I was a single mom, 
working hard, working two jobs sometimes, going to college, and 
maintaining honors. By November 2004 I gave my life to Christ, 
then my husband. We got married October 2005.
    After becoming a Christian I became an ordained minister. 
My faith began to challenge and propel me to work with families 
and kids, and tackle the problems that plague the black 
communities. I lived it, and I wanted to reverse the plague. I 
had begun and purposed in my heart that I would become that 
change, and advocate for my family and friends.
    In 2006 I felt compelled by God to take more responsibility 
for my daughter's education. I took her out of the public 
education in the fourth grade, and I wanted to give her a 
Christian education by homeschooling her, so we did. My husband 
and I did not know what that would entail, but we obeyed God.
    Later, in 2007, we opened up a Christian homeschool academy 
as an extension of our evangelistic work. My husband and I are 
now homeowners in Chicago, Illinois. For the last three years 
my husband is the owner of his own barber shop in the South 
Shore Community in Chicago for the last five years, and we are 
continuing our ministerial work with our Christian school and 
our co-op group to support the families in the City of Chicago.
    Chairman Yarmuth. Ms. Fields, if you could wrap it up, your 
time is considerably over.
    Rev. Fields. Oh, it is?
    Chairman Yarmuth. So, if you could, wrap it up. You can 
make a concluding statement.
    Rev. Fields. Oh, wrap it up, okay. And one more point, that 
we graduated our oldest daughter--she is 22--from being 
homeschooled all the way to 12th grade. We graduated her from 
our homeschool academy, and now she just walked across the 
stage from the University of Bridgeport, with a degree in 
nutritional science with a 3.1 GPA from being homeschooled. 
Thank you.
    [The prepared statement of Pastor Latasha Fields follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Yarmuth. Thank you very much.
    I now recognize Pastor Mahan for five minutes.

                STATEMENT OF PASTOR DAVID MAHAN

    Pastor Mahan. Chairman Yarmuth, Ranking Member Womack, all 
the esteemed Members of the House Budget Committee, I thank you 
for this opportunity to share my family's journey out of 
poverty.
    Growing up, my wife and I were raised in lower middle-class 
households with the public schools, experienced some of the 
same societal ills far too many American children face. Abuse, 
addiction, divorce, depression, parents who have more bills 
than money most months were all part of our building blocks 
that formed--the building blocks that formed our childhood.
    In 1993, soon after I completed my senior year, my 
girlfriend informed me that she was pregnant, and that I had 
some serious decisions to make. I was terrified, confused. As I 
was--it seemed like everyone around me kind of knew what I 
should do more than I did.
    So my friends thought that we should have an abortion, just 
go ahead and kill the baby, and then you can just go on with 
your life. My mother, well-meaning, she decided that I should 
take care of my children, you know, always, but that it is my 
wife that I should not--I shouldn't marry my wife, that I 
should just basically take care of the kids.
    This is, later on, what I found would lead to about 70 
percent of African-American kids being born, you know, being 
born into households without fathers. And so I am so glad I 
didn't take that advice.
    Despite all of the advice to the contrary, we decided to 
keep our baby, get married, and trust the Lord for answers 
along the way. I went home from being a popular student leader, 
a newly enrolled college student, to a poor college dropout and 
teen father overnight.
    The first year of our marriage I made $11,000 in 2017 in 
debt. While living with--or living with our relatives, we had 
to put our baby girl in the bottom drawer of a dresser and--to 
sleep, because we just couldn't afford a crib. Her nightlight 
was the orange security light that shown through the window 
from the back wall of the grocery store. And my wife and I 
pillowed our heads at a bed that, basically, they found my 
alcoholic uncle dead in just months before we moved in.
    After living with a few relatives and working hard, I 
finally was able to move my family into a small duplex 
apartment in a rough neighborhood. Drugs were being sold across 
the street. The smell of marijuana frequently crept into the 
house through the paper-thin walls from our neighbors. Shortly 
after we had our second daughter, I was working several jobs, 
struggling to study for the ministry.
    We finally worked ourselves off of the WIC program, and I 
even started a small cleaning company, where I was thankful, 
basically, to work and clean out crack houses that were roach-
infested and everything from property managers that kind of 
frequented our company.
    I was working so much that one day, when my wife, you know, 
came, I was home between jobs, and my wife came home and said 
she was looking for me, calling my name. And she said she came 
downstairs where I was zoned out, staring blankly at a empty TV 
screen with tears streaming down my face. I was demoralized, 
utterly exhausted, and I felt like I was beginning to lose my 
mind. However, looking back, I can clearly see how the Lord 
rescued us time and time again, and how, when we felt the 
weakest, He faithfully stepped in to strengthen us.
    For instance, once when our car broke down, our only car 
broke down unexpectedly, we had a friend randomly call the 
house to say that they got an amazing deal at the auto auction. 
They bought two cars, and so they offered the one that they 
were currently driving to my wife and I.
    Another time I came home and I put my bags down in the 
front room and I saw my wife weeping in the kitchen, looking at 
the empty cabinets and refrigerators. And she said, ``Lord, I 
never seen the righteous forsaken, nor my seed begging bread.'' 
And she prayed that we would have food that night. Her friend 
called that night and said that her brother was working at the 
grocery store up the street, said that they had some extra meat 
they were about to throw away, and that night we all ate steak 
for dinner.
    And then there was the year we decided to step out on faith 
and take our children out of the failing public school system. 
We could not afford private school. Our family thought that we 
were nuts, but the Lord connected us to a group of homeschool 
families in our church who took us in, guided us through the 
entire process. Years and a whole lot of criticism later, when 
we were able to move into a better neighborhood and enroll our 
children into a high-performing high school, we once again 
recognized the sovereign hand of God in the decision that we 
made to homeschool our children.
    Two poor African-American teen parents with little post-
secondary education somehow raised four brilliant children with 
exemplary character who would all rank in the top of their 
classes, 4.0, 4.3, 4.6. Mentoring programs, thousands of hours 
of community service, GE/Reagan and merit scholarships, a 
neuroscience degree from the Ohio State University, double 
majors. With God's help and a strong community of faith, we 
were blessed to achieve outcomes that many of our public 
schools in our area could not, and all from the kitchen table 
of our modest inner-city home.
    In closing, I understand the pain of poverty, and the sense 
of hopelessness that it engenders. However, I also understand 
the hope that comes from personal responsibility, strong 
marriages and families, and an act of faith in Jesus Christ.
    While there is a place for poverty relief programs in 
society, for sure, I feel that our reliance upon them has 
become excessive, and that many of them have grossly missed the 
mark of empowering their recipients to achieve self-
sufficiency.
    Today, my wife lovingly serves disadvantaged women in one 
of the poorest neighborhoods of our city. As a youth 
development consultant and minister, I serve thousands of youth 
and families per year, teaching character education and the 
word of God all over the country and abroad. We just celebrated 
our 25th year in marriage together, and our four children are 
absolutely thriving. However, there is nothing special about 
us, but for the fact that we are trophies of God's grace and 
beneficiaries of the love and kindness of family, friends, and 
others within our community who committed to love God and love 
their neighbors, to be clear.
    Personal responsibility, strong marriages and families, and 
an act of faith in Jesus Christ is the formula that worked for 
us. This is the formula that worked for our ancestors before 
us. And this is the only formula that will work for Americans 
today. Government programs will only prove successful to the 
degree that they supplement these key factors without 
supplanting them.
    I appreciate your time to come and share my family story 
today. It is a big deal in the Mahan house, and I am free to 
answer any questions that you might have.
    [The prepared statement of Pastor David Mahan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Yarmuth. I thank the gentleman for his testimony. 
We will now begin the question-and-answer period. I yield five 
minutes to the gentleman from New York, Mr. Jeffries.
    Mr. Jeffries. I thank the distinguished Chair for convening 
this hearing and for your leadership. And, of course, I thank 
Congresswoman Barbara Lee for her persistent leadership on this 
issue within the caucus, and thank all of the witnesses for 
your presence here today and for your testimony.
    It seems to me that tackling the issue of poverty should be 
something that we do in a bipartisan way. Jim Clyburn has 
frequently raised the issue of the need for Congress to address 
persistently poor counties. And when you look at the measure of 
what a persistently poor county is in the United States of 
America, it is based on the fact that 20 percent or more of the 
people have lived below the poverty line 30 or more years. That 
is a persistently poor county.
    And when you look at who represents persistently poor 
counties in the United States House of Representatives, it is 
almost equally divided between Democrats and Republicans, both 
sides of the aisle. I haven't looked at the breakdown in terms 
of the 116th Congress, but in previous congresses, in fact, my 
colleagues on the other side of the aisle represented more 
persistently poor counties than did Members of the House 
Democratic Caucus.
    This is an issue that, in the past, Dr. King spoken 
eloquently about the effort to divide poor whites and poor 
African-Americans from each other, notwithstanding the 
commonality of condition that can often be found.
    Dr. Barber, I would be interested in your take on where the 
opportunities lie to tackle poverty as a moral imperative, as 
you have eloquently laid out for the country, but to try to do 
it in a bipartisan fashion.
    Rev. Dr. Barber. First of all, I think that we have to, but 
I think all of us have to get this right. We are not talking 
about just addressing poverty a little bit. King talked about 
ending poverty, militarism, and racism, and ecological 
devastation, a war economy. That is why we have put together a 
budget, as well as the facts.
    And the reality is, even with the facts, we got to start 
with what is right, 140 million poor people. We have got to 
stop racializing poverty, like poverty is some black people 
that don't work hard enough. The fact of the matter, they are 
more white people that are poor than there are blacks. The 
concentration is more whites, but there is actually more 
African-Americans.
    And so we should come together. I was actually looking at 
the Ranking Member's state in Arkansas. I just thought I would 
say I have looked at Arkansas. I think this is Arkansas. It 
says that in Arkansas, 46 percent of people in Arkansas are 
poor and low income: 493,000 of them are black, but 863,000 of 
them are white.
    Now, all those folks are not poor because they don't work 
hard enough. To have anecdotal evidence about people working 
hard enough, that--they are actually proving our point. People 
shouldn't have to work three jobs. That is the point. People 
shouldn't work without health care. That is the point. People 
shouldn't have to pray to wait for food to come on their table. 
That is the point. If you are working, you should be making a 
living wage, you should have health care.
    And the richest nation in the world--every one of you that 
comes into this chamber, one of the first things you get is 
free health care, because we pay for it. We pay for it. You 
make sure that, for instance, you have the ability to get all 
of your preclearance--all your--this lady didn't have that 
chance.
    Ms. Greer. No.
    Rev. Dr. Barber. She didn't have that chance. And so, what 
we have put together for you is an agenda of what can happen if 
we invest in living wages, and how many dollars that can put 
into the economy for everybody. What can happen if we cut the 
military budget by 350--and it will still be higher than 
Russia, Iran, North Korea, all of them combined.
    We have a complete plan. And we are not here talking about 
Democrat or Republican. We are not trying to racialize--but 
that is why we dis-aggregated the number. We are tired of the 
racialization of poverty, the partisanism of poverty.
    What we are saying is you cannot have a society where 43 
percent of your people are poor and low-wealth. I don't care if 
they are from eastern Kentucky, where we have been, that is 
predominately white, or eastern North Carolina, that is 
predominately black. It is wrong. And we have a plan, and we 
must work together to change this.
    Mr. Jeffries. Thank you, Dr. Barber, but one last question. 
You also mentioned that the traditional poverty measures don't 
actually capture the distressed conditions that the American 
people are confronting in incredibly large numbers. And one of 
the statistics that has startled many of us, I believe, is the 
fact that at least half the country has indicated that they 
couldn't afford a sudden, unexpected $400 expense. That is over 
160 million people in the United States of America.
    How do you think we should measure poverty? And maybe Dr. 
Theoharis can address that, or Dr. Barber. I yield to you at 
your discretion.
    Rev. Dr. Barber. I am going to take one shot and turn it 
to--we have the official poverty measure and the supplemental 
poverty measure. The problem is even the official poverty 
measure didn't really measure poverty at the beginning. The 
supplemental poverty measure looks at poverty based on the 
federal-federal poverty line, but also those who are less than 
200 percent of the federal poverty line. And what it shows us 
is that that is a broader measurement. It gives us a truer 
picture.
    And if we are going to have this conversation, let's start 
with the facts, not the phoniness, not the mythology, but let's 
start with the facts of what is happening to the people across 
this country.
    Liz?
    Rev. Dr. Theoharis. Yes, indeed. We actually need a more 
effective poverty measure. We need to not just talk about a 
food budget, when housing is one of the biggest expenses, when 
health care and health care crises--when 73 percent of this 
country can actually have health care insurance and still not 
be able to afford many of their basic health care services. We 
got a problem.
    Mr. Jeffries. Thank you.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Ohio, Mr. Johnson, for five 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And, boy, I tell you, 
I want to thank all of our witnesses for being here today. This 
is a really, really important hearing, because the issue of 
poverty in America is very real. I know, because I have got 
some personal experience with it. And I know many of you are 
going to look up here and say, ``Yeah, right, okay.''
    But let me give you a little bit of my background. I was 
born on a two-wheel wagon-rut mule farm. We had no indoor 
plumbing. We cooked and heated on two big, old, black 
potbellied stoves. We farmed with mules up until I was about 13 
years old. We went to the store once a month, and that was to 
get sugar and salt, if we had the money to do it. Everything 
else came from the sweat of our brow, and the toil of our 
hands, in growing and raising what we consumed. My mother 
worked three or four jobs, picking cotton, picking tobacco, 
working on produce farms, you name it. That was--we didn't know 
we were poor. We thought we lived like everybody else did in 
the community in which we were raised.
    Mother had to find a way to take care of two kids, so she 
lied about my age. Mom's dead now, so I can say that, you can't 
go after her. But she lied about my age to start me to school 
when I was five years old. And because my dad was an alcoholic, 
and she had to jump from place to place to try to find a job 
because he wasn't providing much input, we were all over the 
place, 13 schools in 12 years.
    So education was a big, big problem for me. I didn't get a 
very good one in elementary school and middle school and high 
school. And thank God that I lived in a country that helped 
provide some opportunities.
    I see a lot of testimony here about Christian principles. 
We got two reverends, two pastors, and a lot of people with 
Jesus signs on their shirts. I have been a Christian since I 
was 10 years old. And I am going to tell you the scriptures 
that I read, one of the problems that we have got in this 
country--it is not a head problem, folks, it is a heart 
problem, because I don't find anywhere in the scripture where 
Jesus said that it was Caesar's job to feed the poor and to 
clothe the widows and to take care of the orphans. He said it 
was the churches. It is the church's responsibility. It is the 
community's responsibility. It is your neighbors' 
responsibility, it is your responsibility, as a neighbor, to do 
those things.
    Pastor Mahan, I find your testimony especially inspiring, 
both because we are fellow Ohioans, and I plan to get with you, 
because I got some thoughts to share with you later, but 
because you too have thought a lot about how fathers and father 
figures can impact the lives of children and young adults. I 
wrote a book about that called ``Raising Fathers'' that was 
published in 2017. We can talk more about that later, too.
    But in your work with at-risk youth, can you describe the 
effect that a strong male role model can have on young people 
and their ability to overcome poverty and succeed in the 
future?
    Pastor Mahan. I, first of all, appreciate your kind words. 
I have not seen a more powerful influencer in anti-poverty in a 
kid's life than a father. Obama said that the leading cause for 
child poverty was fatherless homes.
    I have seen it go the positive way, and I have seen it go a 
negative way. I have seen it where we have got mentoring 
programs, we are working with kids, Father gets out of jail, 
and that power of a father comes in and undoes everything we 
did in the mentoring program. But I also see it work in the 
opposite way, where we can be fathers to the fatherless, where 
we can go into communities where 80, 90 percent of kids have no 
dads. We can be coaches, we can be mentors, we can be teachers, 
and turn that kid's life around, too, by being a father, to 
somebody that didn't have one.
    It is just that--it is something that can't be understated. 
And that is my biggest piece. When I come into the room and I 
am hearing folks talk about, you know--I don't hear anybody 
saying we don't want to end poverty. What I am hearing is that 
you have got some that are talking about intentions, and you 
have got some that are talking about results. And this is not 
new. You know, we have got the war on poverty that started 
years ago. We had 7 percent of the kids in America that were 
born in homes without fathers. At the end of the doggone thing, 
today, we got 42 percent of kids in America that have no 
fathers.
    Mr. Johnson. Yes. Pastor Mahan, I really--I wish I could 
take all day with you, but let me get to Pastor Fields real 
quick.
    You know, access to quality education is often referred to 
as the silver bullet for success in life. Can you talk just 
briefly about some ways that that has played out in your life, 
or the lives of your children? What role has federal policy had 
in your and your children's education?
    Rev. Fields. Yes, it has been a tremendous blessing. And, 
like I said, I pulled my daughter out in fourth grade. And so 
we began to homeschool.
    And what we have seen what education has done--because, of 
course, me and my husband are products of the public education 
system. Well, because I have always been a stickler and an 
advocate for education, with homeschooling my children their 
education was unlimited. It was vast. So we were able to give 
them a quality education. And I believe some of the ones here 
who were saying that even teaching our children our history--so 
we was able to give them that, that the public school has 
failed to give them.
    And so, with me going back to school, and just recently 
graduating in December, I am an advocate for education. I 
understand where I felt the federal dollars are being spent in 
order to give us those opportunities to get an education. So 
education is definitely a key for our children and for society 
to succeed and to come out of poverty.
    Mr. Johnson. Okay. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Yarmuth. Thank you. The gentleman's time has 
expired. I now recognize the gentleman from Pennsylvania, Mr. 
Boyle, for five minutes.
    Mr. Boyle. Thank you, Mr. Chairman. And I want to just say 
thank you to each and every one of the eight witnesses, for 
both the head and the heart that was present in each one of 
your different testimonies.
    You know, one of the things I have noticed in our political 
discourse--and this is not just in one campaign, it is 
throughout many campaigns--sometimes some people use a very 
dishonest frame. They will say there are the economic issues, 
and then there are the moral issues. And the moral issues, 
typically, they are referring to a few hot-button social 
issues. And then they will say, ``Oh, but then there are the 
economic issues: taxes, and spending, and budgets.''I believe 
that is wrong. The economic issues are moral issues. And this 
really goes back to our founding documents, because we are a 
nation born not of one race of people, but of a commitment to a 
certain set of principles and ideals. In our founding documents 
is the acknowledgment that all of us, by virtue of human 
beings, have certain rights.
    However, if we don't have the economic ability to 
participate fully in those rights, then those rights remain 
just abstract. That is something that the UN human--UN 
Declaration on Human Rights recognized over half a century ago, 
which the United States led the drafting of, and have signed up 
to it, including in that document, by the way, a commitment for 
universal health care as a human right.
    Now, I want to transition just briefly, because there are 
so many different topics that were raised, from education, to 
housing, to opioids. And I wanted to focus specifically on 
opioids.
    And Ms. Kinsey, Savannah, thank you for your testimony. As 
a fellow Pennsylvanian, you make me proud. I thank you 
especially for sharing the story of your friend, and I am sorry 
for her loss and the loss that you have experienced for Nycki.
    The opioid epidemic is horrible in all 50 states. But for 
our home state of Pennsylvania, for the Commonwealth, it is 
nothing short of a catastrophe. In my home town of 
Philadelphia, we, I am sad to say, lead the nation among major 
cities for opioid deaths. It is something that I have worked--I 
have spent a lot of time on, as it has been especially a 
scourge in my own community, in my own district.
    I was wondering if you could speak to the ways in which our 
SNAP program, Medicaid, and other financial systems actually 
make it harder to break that cycle of addiction, the way the 
economic conditions actually exacerbate the cycle of addiction, 
and if you had any ideas or thoughts on ways we could make it 
easier for people to kick that opioid epidemic addiction, 
knowing that it would, A, be the right thing to do, but, B, in 
the financial interests of society to help them do so.
    Ms. Kinsey. Thank you. So, to the last part of your 
question, I will just answer that first. I believe that putting 
folks in prison for the opioid epidemic is not the way to do 
it. I believe a treatment center would be the correct route, 
just because going into prison you don't even get treatment, or 
very little treatment. And then it just turns to in and out, in 
and out. And then eventually it just ends--leads to death, and 
doesn't end anywhere well.
    And then can you repeat your first question? I am sorry.
    Mr. Boyle. No, that is good. I was--the first part was 
talking about the ways in which the system that we have created 
actually makes it more difficult to break this cycle of 
addiction.
    Ms. Kinsey. Okay.
    Mr. Boyle. And it is not a quiz. If you don't have anything 
to offer, then don't worry about it. But I just--I think that 
it is so important that we listen to voices, the lived 
experiences, people like yourself, because I think, in many 
ways, those are the voices we don't hear enough of here in 
Washington.
    Ms. Kinsey. Yes. So I don't really feel like food stamps 
and the WIC program and stuff like that really affect, like, 
the opioids, like, in a bad way. Like, I feel like by not--I 
might be misunderstanding your question, but I feel like by not 
having the money for all of them, I feel like it affects it 
tremendously, just because you end up--like, your mental health 
is just declining. And, I mean, I have not experienced it 
personally, I have just known folks. But just from what I have 
heard, and all of that, and living there, it is just, like--so 
you go to the store, and you can't afford food for your family.
    Like, I know a lot of us have talked about children and, 
like, that is very depressing, to not be able to, you know, 
afford food for your family. And, like, just the route of my 
friend, Nycki, like, she actually was just, like, smoking weed 
with her friends. And so she was smoking and they, you know, 
ran out of weed. So a friend of hers actually said, you know, 
``Try opioids, like, you know, try heroin, it is just--you 
know, it is just as good, like, you know, nothing is going to 
happen.''
    So, you know, they were poor because, you know, they ran 
out of the weed, and then like, you know, so----
    Chairman Yarmuth. Okay, the gentleman's time has expired. I 
now recognize the gentleman from Missouri, Mr. Smith, for five 
minutes.
    Mr. Smith. Thank you, Mr. Chairman. Sixty-five days. Sixty-
five days. That is how many days that have passed that we have 
not did the responsibility of this Committee, and that is to 
pass a budget. A budget hasn't even been filed amongst the 
Democrats.
    Nancy Pelosi, who spoke in this Committee just at the very 
beginning, said that a budget is a statement of your values. 
Show us your values. That is whenever her party was in the 
minority, just a few years ago. I am asking Speaker Pelosi and 
the House Democrats to pass a budget.
    We are having a hearing today on poverty. Poverty hits home 
directly to me. But before we can address a lot of the issues 
in poverty, we have to do a budget, which was supposed to be 
done 65 days ago. File a budget. Let us talk about it. Let us 
see your values. House Republicans have a budget. Take up ours, 
if you don't want to take up yours. The President even has a 
budget.
    When we talk about the area that I represent in southeast 
Missouri, it is called the Bootheel. It is a very impoverished 
congressional district. We have over 200 miles of the 
Mississippi. My family has called that district home for seven 
generations.
    Growing up in high school and in college, I would go work 
on my grandparents' farm. Whenever I would work at my 
grandparent's farm, in order to wash my hands after working 
cattle, or picking up rocks, clearing brush, to wash my hands I 
had to pump water out of a cistern. My grandparents never had 
running water. They died not having running water. So I 
understand what poverty is all about.
    More than 20 of my 30 counties are persistent-poverty 
counties in the 8th congressional district. It is a very 
impoverished area. But you know what my family always taught 
me? My father was a minister. My parents showed a lot of love. 
They have been married for more than 55 years. But they taught 
me that hard work, and determination, and support from your 
family can do a lot. And a lot can happen from a family that 
had nothing. And so there is a way to get out of poverty.
    Lyndon B. Johnson declared war on poverty over 50 years 
ago, and since then we have spent over $25 trillion on 
different government programs. We had 36 million people in 
poverty in the 1960s, when we granted the war on poverty. Now 
there is over 40 million, according to the statistics from the 
government. I know that you all have said 140 million, but 40 
million.
    So regardless, it has increased. But we have spent $25 
trillion. Those 40 million that is considered in poverty right 
now, we spend a trillion dollars a year in 80 different federal 
programs to help those that are in poverty. If we just took 
that trillion dollars and divided it up amongst those 40 
million people, that would be over $20,000 a year in a check. I 
would say the federal government is not doing a good job at 
trying to get people out of poverty. Think about those numbers.
    We have a poverty trap in these 80-plus federal programs. 
We have had people come and testify before Congress that says, 
you know, ``I work 40 hours a week at the local convenience 
store. I have to get child care subsidies. I get assistance 
with my rent. I get food stamps. But I got a $2 pay raise, and 
guess what? I lost my child care subsidies. My food stamps got 
reduced.''
    There is a certain level, according to our federal 
programs, our welfare programs, that they push people down. And 
that should be a Republican and Democrat issue, is to reform 
that. We want people to better themselves every day, to 
gradually work themselves off the system. That is a way that we 
can do it. We don't want to keep people on the system. We want 
them to have a better quality of life.
    So many people are worried about that security blanket. But 
if they can see the progress of a better life, it is good. When 
I go into the schools and I talk to the kids and Hayti, 
Missouri, or in Caruthersville, or Kennett, or Bunker, I say it 
doesn't matter what zip code you are born in, or what family 
you are born in. If you get a good education and you work hard, 
you can do a lot.
    But love also helps. So I think the churches--being the son 
of a pastor, the love that you can nourish these folks is 
amazing.
    And I could say so much more, but poverty hits home. It is 
an important topic. But before we can even hit it, let's get a 
budget done.
    Thanks, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from California, Mr. Khanna, for five 
minutes.
    Mr. Khanna. Thank you, Mr. Chairman.
    Reverend Barber, thank you for your incredible moral 
leadership in this country. Thank you to all of the witnesses 
for taking time to come and testify before Congress.
    Reverend Barber, I want to ask your wisdom and candid 
advice to this Committee. Representative Barbara Lee, about a 
week ago, led a group of us down to hear President Carter teach 
Sunday School. And President Carter had a hip injury, and three 
weeks later he is at the pulpit teaching, showing his 
resilience.
    And there are two things he said that struck me. One, he 
talked about a phone call he had with President Trump, and 
President Trump said to President Carter, ``I am concerned 
about China.'' And President Carter said, ``Well, China hasn't 
been in a war since 1979. We have been in over 40 conflicts. 
And if we had taken those trillions of dollars and invested it 
in our infrastructure, in our education, and in high-speed 
rail, and in broadband, we would probably be in a much better 
place.''
    And then President Carter talked about what he thought it 
meant for America to be a superpower, informed by his own 
understanding of the teachings of Jesus and his own Christian 
faith. And he said what it means to be a superpower, in his 
view, is a place where leaders from around the world would come 
to Washington to seek our guidance and counsel on how to bring 
peace, where people would come to look to America in 
understanding how to bring justice.
    President Carter, as I know it, is the last president who 
actually ran on cutting the defense budget and won. He talked 
about 5 to 7 percent cuts in defense.
    And here is the reality, Reverend Barber. Representative 
Lee and I introduced an amendment in this Committee to freeze 
the defense spending, not to cut it, to freeze it to the levels 
that Donald Trump has in 2009. And we only got seven votes for 
that.
    Now, the arguments we hear is, well, we can't shut down 
government. The Republicans are in charge in the Senate. The 
President has to sign something. We need a budget. And I am 
sure they are well-meaning arguments.
    But, Reverend Barber, I would like your counsel to this 
Committee, to this Congress, given all the constraints, how do 
we succeed in making the case and standing up for responsible 
cuts in defense?
    Rev. Dr. Barber. You know, I come from somebody who--and 
the people here who remember--who know that we were deeply 
impacted by government, by Caesar, if you will. And it took 
religious people who had to stand up to Caesar when Caesar 
said, ``Separate, but equal.'' There wasn't but one dissenter, 
Justice Harlan out of eastern Kentucky, that stood up to that. 
But he stood up. And because he stood up, he eventually brought 
other people to his position, and we won.
    Somebody has to stand up to the lies. I have heard so many 
distortions here today it actually hurts my head. I mean, to 
suggest that work--these people work hard. We all have to tell 
our stories and our children--but for somebody to say, well, 
Jesus never said anything about Caesar. First of all, it is 
interesting that you all would define yourself as Caesar. That 
in itself is--right? I mean we need to stop for a minute to 
even hear that.
    And then the next thing is that you have read the 2,000 
scriptures in the Bible that talk about how society is supposed 
to treat the poor, the immigrant, the least of these. And you 
don't know that Jesus started his first sermon with good news 
to the prototokos. That is a Greek word which means those who 
have been made poor by economic systems. I mean it really is 
shocking that folk are saying the same thing that we heard 
people say about slavery.
    Slaves, just work hard and wait. Civil rights, we don't 
need to be involved. Just work hard and wait. Social Security 
that, you know--people saying you were against Social Security, 
and they said God was against it. It is bothersome that, in the 
21st century, we still have these weak, tired, old mythologies, 
lying about the world poverty when the Russell Sage Foundation 
actually says that it did decrease poverty. But we left the 
field.
    So I would say to all of us, Democrats and Republicans, we 
brought you people, Republicans, Democrats, white, and black, 
see the people. Stop just talking about how know poverty--and 
hear what these folk are saying, and put together a full plan 
to deal with this issue.
    This is traumatic, to see this happening in America today, 
that people would stick with their partisan lines and ignore 
the people that are really hurting.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Texas, Mr. Flores, for five 
minutes.
    Mr. Flores. Thank you, Chairman Yarmuth, and thank you, 
Republican Leader Womack, for holding this important hearing 
about poverty in America today.
    I come at poverty from a personal perspective. After my 
family started--or my early years were in poverty. And I 
remember there were nights when my dad would come home after 
working hard and say, ``Well, the soup is going to be a little 
thin tonight.''
    And we were able to persevere and ultimately prosper, but 
there was no Medicaid. There were no--there was no SNAP. All we 
got was a little bit of help from friends from time to time, 
from the community, and my dad's hard work. And I was blessed 
to be able to go to a quality public school that didn't have a 
lot of federal mandates or oversight over it. It was local 
leaders that decided how they wanted to educate their kids, and 
they did a wonderful job with it. And we ultimately persevered. 
But along the way I started working at 9, threw papers at 10, 
and by age 13 I was driving a tractor, building fence six days 
a week, 12 hours a day during the summer times.
    And again, there was no federal support along the way. I am 
not saying the federal government doesn't have a role, I am 
just trying to say it is not the end-all be-all. But what it 
did--what my early life did tell me is that there is a value to 
work, and that paychecks can solve a lot of--paychecks and good 
jobs can solve a lot of issues. And so that leads me back to 
where we are today.
    By all accounts, our economy is very strong today, and 
average hourly wages have increased by 3.2 percent, which is 
significantly higher than the 2.3 percent over the last 10 
years. And this recovery has been broad and it has been deep. 
Unemployment for African-Americans and Hispanics and females is 
at record lows. Wage growth in the bottom 10 percent of our 
nation's workforce is 50 percent greater than that work--than 
that income growth in the top 10 percent, the first time that 
income inequality has shrunk in the last several years.
    So a strong economy has opened a lot of doors. They lift 
all people. We have more jobs available today than we have 
people to fill them. So my view is--I come at this, again, from 
a perspective of how do we help people have the workforce 
training programs that they need, an education system that 
understands the needs of the future, and flexibility for 
students and youth to access more options to apprenticeships 
and technical skills?
    And while we may have disagreements about how to best lift 
low-income Americans out of poverty and into prosperity, I 
believe it is important to have this discussion.
    My questions start with a question for Pastor Fields. I 
believe one of the key ingredients for success for at-risk 
youth is a stable family and a stable household. Unfortunately, 
a lot of our at-risk youth come home to an environment that is 
not healthy, and they don't live in encouraging communities. 
Are there examples of successful anti-poverty programs that you 
have been a part of that address these problems for youth?
    Rev. Fields. Thank you, Member Flores. Yes, and that is--I 
am hearing everybody testify, as well, about the same thing. 
And I am finding it hard to understand why, when the word is 
said, 'hard work,' why is that interpreted in a different way?
    I realize all of us sitting here, everyone in this room, 
has worked hard to some extent. But what we are saying is--and 
I believe you all would agree--that even where you all sit, as 
representatives, in Congress and Senators, you did not do it by 
not working hard. And so we just need to understand what that 
word means.
    We are saying that you have to persevere. You have to 
endeavor. And for me, I grew up in the same environments that 
everyone sitting here is testifying about. Again, my mother was 
on drugs, in and out of prison. My grandmother did not have 
federal aid. My grandmother bought a house in 1972, working as 
a janitor at Louisiana State University. So before the civil 
rights, there was no federal aid. There was no welfare and food 
stamps. So I am sorry if I come from an environment where I 
have seen that you do not have to rely on government, you can 
work hard and persevere, no matter how long it takes, and that 
is what I did.
    Mr. Flores. And that is--that takes us to our question. 
Well, give us examples of successful community programs that 
help restore healthy families so that we can have that economic 
success. Your story is a great one.
    Rev. Fields. I mean, like I said, I got the food stamps for 
a couple years. So I am not here to say totally dissolve it. 
People do need help. But what I am here to say, and especially 
working in the real estate industry, it doesn't have to be 
perpetual.
    Mr. Flores. Right.
    Rev. Fields. You know, you got families that pass Section 8 
and welfare down like it is an inheritance. The Bible says we 
ought to lay up an inheritance for our children. And it is not 
government entitlement.
    Mr. Flores. Pastor Mahan, we have talked a lot about the 
inputs into anti-poverty programs, where we are trying to solve 
the effects of poverty, but we don't look at the underlying 
causes of poverty. Can you walk us through?
    What--what should our approach be to anti-poverty programs? 
Instead of looking at the--trying to solve the effects, solving 
the impact, going after the impacts?
    Pastor Mahan. Empowerment is--to me, I think empowerment is 
the key. You know, empowering a single father, empower a single 
mother to get back on her feet to where she can do so in a way 
that builds dignity, and not dependence.
    To answer the other question, I would say the churches, in 
my opinion, have been probably some of the strongest 
organizations to deal with these issues, and especially the 
opiate piece of it in Ohio. Our faith-based opiate programs 
have been phenomenal all across the state, to where they are 
always at the governor's office talking about the successes of 
their programs.
    In my personal life, it was the church. They got me 
involved in homeschooling, when everybody thought we was crazy. 
They got me involved--and even opportunities for employment, 
and things like that. And so that would be the number-one 
organization, I would say, that we would need to empower a 
little bit more, with the TANF, and things like that.
    But again, can they do so, and still be able to preach 
Christ, and to have the same world view, and positions that 
basically made them conspicuous to the government in the first 
place? Like, you guys are doing an amazing job, but then when I 
give you money, ``Shhh.'' You know, ``We don't want to talk 
about what made you so successful.''
    Mr. Flores. I want to apologize to the Chairman for going 
over my time, but I do appreciate all of your testimony as we 
work together on this very important issue.
    Thank you, I yield back.
    Chairman Yarmuth. Thank you. The gentleman's time has 
expired. I now recognize the gentlelady from Connecticut, Ms. 
DeLauro, for five minutes.
    Ms. DeLauro. Thank you very much, Mr. Chairman. And I just 
want to say a thank-you to Reverend Barber, to Dr. Theoharis, 
and to all of our witnesses this morning. It is very, very 
compelling.
    I just want to make a couple of points here. First, to 
start out with, some of my colleagues have talked about a 
budget resolution. Keep in mind that two years ago the other 
side of the aisle did not have a budget resolution; four years 
ago this side of the aisle did not have a budget resolution. We 
have moved forward with looking at Appropriations Committees 
that will do precisely what we are talking about doing here 
today--is help lifting people out of poverty.
    So this is a critically important hearing. The issue of 
eradicating poverty, addressing people's economic security is 
at the heart of what we do in this body, because the biggest 
economic challenge facing American families is that their pay 
is not keeping up with their rising costs. They struggle to 
deal with health care, prescription drugs, and child care, and 
a number of other areas.
    And I am reminded by a--of a quote by Robert F. Kennedy, 
which I think is very fitting here this morning. And his quote 
is, ``I believe that, as long as there is plenty, poverty is 
evil. We live in a land of plenty. Poverty is evil. And 
government belongs,'' he further said, ``wherever evil needs an 
adversary, and there are people in distress.'' People are in 
distress in this country, and we are the government. And we 
need to have a role in what is going on here.
    Let me just talk about those who would say--that say that 
we went to war on poverty with Lyndon Johnson and nothing 
happened. Wrong. We created a social safety net, and that 
social safety net includes Social Security, lifts 26.5 million 
people out of poverty. And I might add, religiously, it was Leo 
XIII, who is Pope Leo XIII, who talked about a Social Security 
program. He didn't call it Social Security, but he said we need 
to take care of other generations.
    The Earned Income Tax Credit, the Child Tax Credit, 9.1 
people--million people lifted out of poverty; the SNAP program, 
4.5 million people lifted out of poverty; SSI, 3.3 million; 
housing assistance, 2.5 million people. We have reduced poverty 
in this country with the creation of a social safety net, 
which--there are some people who are serving today in this body 
would like to decimate, because they don't believe we should--
government should be involved in this area.
    This is not self-serving. I wrote a book two years ago 
called ``The Least Among Us: Waging the Battle for the 
Vulnerable.'' And you know what I found when I went to look at 
the creation of a social safety net in this country? It was 
Democrats and Republicans. It was a McGovern and a Dole who 
said, ``People are hungry in this country. We need to do 
something about it.'' It was a Jake Javits who said we need to 
have housing assistance for people. That is a role of 
government. It was the Kennedys and the Schweikerts and others 
who came together saying we have an economic challenge, we face 
it together, and we move on- on these issues.
    So that--to say--when you talk about empowering something, 
how does a person get empowered? Just by saying, ``You are 
empowered?'' You don't do that. We need to take a look at what 
the problems are, and identify them.
    I just wanted to make this other point. This is not--we 
have a social safety net in this nation. It is being frayed, 
and it is being decimated, and hollowed out. And if we are not 
willing on both sides of the aisle to stand up and make the 
fight for the strength of that safety net--and Reverend Barber, 
you talked about the supplemental poverty measure, which is the 
measure we currently use. And I--and when Mr. Jeffries asked 
you that question, you said that is the one that we should use, 
but we should redefine poverty.
    You should know that today, in this body--and Barbara Lee 
and I are leading this letter--we have--there is the use of the 
chained CPI, which is now being talked about by this 
Administration, that would, in fact, create a new measure for 
poverty that would decrease the number of poor people, that 
would put more people in jeopardy. This is what the answer is 
by some of the folks here. This is what it is. And I am just 
going to ask you and advise you, please, help us to fight back 
on this chained CPI effort, because it is wrong, and it will 
hurt the most vulnerable people.
    The other efforts that you need to be engaged in--excuse 
me, I am pontificating, you may say this--but the Child Tax 
Credit. We have legislation called the American Family Act, 
which would increase the Child Tax Credit for children over six 
years old and those under six, the kids who are the most 
vulnerable in this country.
    And I would just tell you that the National Academy of 
Sciences did a report called ``A Roadmap to Reducing Child 
Poverty,'' that if we did something like the American Family 
Act, we could reduce child poverty by 50 percent in the next 
decade. That measure is coming up in short order in this body, 
through the Ways and Means Committee. All of the advocacy that 
all of you can muster needs to be focused on this Child Tax 
Credit that is for the most vulnerable children in the nation, 
and those children who have been left behind. And we could do a 
remarkable amount of work if we were there.
    I am sorry there is no question. But there have been so 
many questions I felt the necessity to respond to some of the 
charges that were made here this morning. Thank you.
    Chairman Yarmuth. Thank you. The gentlelady's time has 
expired. I now recognize the gentleman from Pennsylvania, Mr. 
Meuser, for five minutes.
    Mr. Meuser. Thank you, Chairman. Thank you, as well, 
Republican Leader Womack. Thank you all very much for being 
here with us today.
    I think it somewhat goes without saying that we do have a 
very strong economy today. There have been 6 million jobs 
created just in the last couple of years. We have an 
unemployment rate of 3.6 percent, the lowest in 50 years. 
Opportunities are there.
    When I got into the workforce, it was 1987. And these times 
are reminiscent of those times. There are choices there. There 
are opportunities. And we still are a nation where people can 
move from low income to high income. I don't think that is 
terribly disputed.
    Now, on the same note, I am in a district where our 
unemployment rate is higher in Pennsylvania, and the--
Pennsylvania's 9th--than the national average. And the 
opportunities perhaps aren't exactly what we want them to be, 
but we are going to continue to work for that.
    There--personal charities are very important, as well. I 
have experienced and worked with--from the United Way, to Head 
Start programs, to something that was--an organization up by me 
known as the Willamette Valley Children's Association I was the 
Chairman of for a couple of years. They are very important. All 
of us here have seen firsthand the need to provide a hand from 
time to time, and sometimes longer than that. So that goes 
without saying.
    JFK also did say that the best form of welfare is a good-
paying job. So I would like to first ask Pastor Fields and 
Pastor Mahan. You both have exemplified effort and courage, but 
sometimes in our society effort and courage aren't enough. They 
do require purpose and direction. So could you share with us 
how you found your purpose and direction, and how you found it?
    Rev. Fields. Number one, I know for a fact I found mine in 
Christ, you know, as Pastor David said earlier. It is in the 
things of God that I found my strength and my purpose. And 
also, in finding Christ I found the sense of family, how 
important family is. And so, when we cover ourselves with 
Christ's presence and his family, that is how you find your 
sense of purpose. That is where your strength comes from.
    And so, for me, that is my personal testimony. My faith in 
Christ, and me and my husband raising our children, and we are 
seeing the strength of family is how we are surviving. That is 
how we are protected, because we have family.
    Mr. Meuser. All right, thank you.
    Pastor Mahan?
    Pastor Mahan. Yes, it is--you know, I am right there, as 
well. And again, I am not here to debate anybody. I am here to 
give my testimony, something that has been done, something that 
has succeeded. And I am just saying that the reason for that 
success is Christ.
    And I noted that, you know, we are in a--you know, we are 
at the Capitol and everything, but the reality is that is my 
inspiration. Trust in the Lord with all your heart, lean not 
into your own understanding. In all of your ways acknowledge 
him and let him direct your path.
    He directed me to homeschooling, He directed me away from 
the public system that was failing our community, He is the one 
that directed me to the people that gave me opportunities for 
employment and opportunities to increase my, you know, 
education, and things like that.
    And now I end up here to share my testimony. And somehow I 
don't want to communicate that somehow it was the government or 
some great works of David Mahan that did that. It was Christ, 
and Christ alone. And as simplistic as that answer is, that is 
my answer.
    Mr. Meuser. To empower you, to create opportunities, to 
motivate you, to make you want to make the most of the day----
    Pastor Mahan. Yes, to get my head up off the pillow, to 
keep working, to keep directing my children in the path that 
they should go.
    Again, you know, the context of poverty is important, and 
family, and that context, man, you can get through anything. 
And what I was bringing up earlier with the whole beginning of 
the war on poverty is that this is something we need to talk 
about. Seven percent of kids were being raised in homes without 
fathers. After it, now we have 42, 50 percent of Latinos, 72 
percent of African-Americans. We have destroyed the context 
that allows people to overcome any obstacle, whether it is 
poverty or anything else. And that needs to be addressed.
    Again, I am not against, you know, public endeavors and 
government endeavors to avoid poverty. However, I am against 
them if they subvert that unit of the family.
    Mr. Meuser. All right. Thank you, Chairman. I yield back my 
time.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from North Carolina, Mr. Price, for 
five minutes.
    Mr. Price. Thank you, Mr. Chairman. I, too, want to thank 
our--the leadership of our Committee for holding this hearing. 
And I want to thank all of our witnesses.
    Of course, I want to pay a special greeting to Reverend 
Barber. His work as the leader of the Moral Monday, the 
inspiration and the leader of the Moral Monday movement in 
North Carolina, has as moved our state. And now, to have that 
work transformed to the national--transferred to the national 
level with the Poor People's Campaign, we are appreciative, and 
have great hopes for this movement.
    A lot of talk this morning about our own personal histories 
and personal experience. I will reflect briefly on that. I do 
want to then have a--pose a question. I had the good fortune to 
come to social and religious and political maturity as the 
civil rights movement swept across the South. One of the things 
that the civil rights movement, I think, taught us was that 
individual morality is not enough. In religious terms, we need 
to rediscover the Hebrew prophets.
    You know, I grew up surrounded by upstanding people, self-
reliant people, loving, kind people. And I learned a lot from 
them. But I also learned, as I looked around the community, 
that many of those same people were perpetuating systems that 
denied other people their humanity, either through their active 
perpetrating of such systems, or their failure to challenge 
such system, social and political systems that were denying 
others their humanity. And the civil rights movement spoke to 
that. Our faith is not just about our individual morality and 
self-reliance, it is about the kind of community we wish to be. 
Rediscover the Hebrew prophets.
    And when it comes to providing for our children, of course, 
we provide for our children, but we have to care about other 
people's children. We have to care about the kind of 
educational opportunities that are available across the 
community. It is not just about protecting ourselves or 
withdrawing. It is about working for a public education system, 
I would say, that serves the entire community, and that lifts 
up the entire community. That is what our faith requires us to 
do, not simply to provide for ourselves.
    I have a particular role here, with--as the Chairman of the 
Transportation and Housing Appropriations Subcommittee, and so 
I want to just put an issue on the table, realizing that I have 
taken a good bit of the time that might be used for an answer. 
I want to talk about evictions.
    The affordable housing crisis in this country has many 
dimensions, but one of them is rising eviction rates and 
foreclosures. This is a problem across many communities, it 
does have a particular effect in communities of color. I won't 
give the statistics, except to say that we have virtually 
erased all the gains made since the Fair Housing Act in 1968, 
by virtue of the rate of foreclosures and evictions. And black 
homeownership has declined, as a result, in the last 10 years, 
declined 7 percentage points. And now TARP and other programs 
designed to deal with this are winding down.
    So my question, Dr. Barber, for you and for any others who 
want to chime in, is what--you have a section in your budget on 
affordable housing, which we are glad to see, and will study 
carefully. What would you say, though, about eviction rates and 
foreclosures, and the kind of effect that has had, is having on 
community health and well-being, as TARP points down? How might 
we carry forward such efforts as we have made here? And, of 
course, these efforts have not been totally successful. But I 
would just appreciate your reflections on that issue.
    Rev. Dr. Barber. Let me yield to Dr. Theoharis and just 
continue to say we have to look at all of this comprehensively. 
But let me yield to her.
    Rev. Dr. Theoharis. So I just want to start by saying I am 
stunned that basically we have had unanimous acknowledgment 
that poverty is widespread across this country. We have pulled 
a group of testifiers who are deeply, personally impacted by 
these problems. They are in the room, and people are not 
talking to them. People are not asking questions about how are 
we going to solve this problem of homelessness, and an 
increased rate of evictions.
    And then people are being blamed for the problems that this 
society has caused. How is it that you can say the war on 
poverty failed, when it is politicians who de-funded that war? 
How can you say that Head Start is a personal charity when it 
has lifted 65 million children out of poverty since it was 
started? So it feels very important to me to say we need a real 
serious conversation in this country led by those that are most 
impacted.
    And I love this question of does the Bible say anything 
about what nations, what Caesars are supposed to do? Because 
Matthew 25, says, ``I was hungry'' to the nations, not to a 
church, not to a charity, not to a an individual. I was hungry, 
and what did your nation do? I was homeless and did you cut 
public housing, or did you start building new public housing? I 
was homeless, and did you allow banks to be bailed out, but 
families who owe more on their houses than they are worth to 
become homeless?
    We have a moral crisis in this country. It is a crisis when 
250,000 people can die every year because of poverty, and 
people in this Committee can admit that in your towns there are 
people hurting. But what are you going to do about it? What are 
you going to do about it now?
    And when we talk about housing subsidies, we heard the 
power of them. You got a loan, you were able to get a house. 
That is government helping out. You were on food programs. That 
is the government helping out. We need more of these programs. 
We need to lift wages. How is it possible that in this country 
there is not one county where, if you are working minimum wage, 
you can't--you can afford a two bedroom apartment.
    Chairman Yarmuth. Reverend----
    Rev. Dr. Theoharis. So we got to connect this housing, and 
this poverty, and these wages, and lift the load of poverty.
    Chairman Yarmuth. Thank you very much. The gentleman's time 
has expired. I now recognize the gentleman from South Carolina, 
Mr. Timmons, for five minutes.
    Mr. Timmons. Thank you, Mr. Chairman. I want to thank all 
the witnesses for taking the time to come and testify before us 
today. Poverty is a serious issue in this country and in my 
district, and I look forward to working with all of my 
colleagues to do everything we can to improve the lives of 
everyone.
    My colleague, Mr. Hern, is particularly passionate about 
this, and I would like to yield the remainder of my time to 
him. Thank you.
    Mr. Hern. I thank my colleague from Pennsylvania--from 
North Carolina, rather. Oh, South Carolina. One of the 
Carolinas. Yes, sorry.
    [Laughter.]
    Mr. Hern. No, I really appreciate the opportunity.
    Mr. Chairman, this is something that is very near and dear 
to my heart, and the Ranking Member knows this. I have spent a 
lifetime working to help people get a first job. I always say 
that the only way you really know how something really, truly 
affects people is having lived it. And many of you have read my 
story before you came in, and--looking at the panel.
    But I grew up in extraordinary poverty. And, you know, I 
appreciate what you all are doing here, I really do, because I 
think it is something we need to address in this country. And 
not only here, but, you know, we have got issues around the 
world that, you know, so many people are involved in. But I 
always say, before we help around the world, we should look at 
our country, as well. This is still the greatest nation on this 
planet. But we need to do a better job of doing things to help 
people that really need it.
    You know, I looked at a lot of things that Martin Luther 
King said, and I think we all look at how to solve a problem, 
and there are multiple ways to solve a problem. He--I look at 
his dream, and I think of what he said, he said, ``Change does 
not roll on the wheels of inevitability, but comes through the 
continuous struggle. And so, while we must straighten our backs 
and work for our freedom, a man cannot ride unless your back is 
bent (sic),'' I agree with that completely.
    I am a product of--like some of these folks have said in 
here, I am a product of being in poverty and found the only way 
out was to work my tail off. And I am here today at 57 years 
old, soon to be 58 years old, to say that there are times the 
safety net--I wouldn't be here today, I am certain of that--the 
safety net of getting a helping hand was very instrumental in 
my early life.
    It didn't start out that way, though. What I had happen 
was--is my mother got married at 15 years old to a fellow who 
was in the Air Force at 24, who was my dad. Less than a year 
later, they had my sister, who died two hours after birth from 
spina bifida. And a year later I was born, and my brother was 
born 18 months after that. We lived on a Air Force base in 
Wichita, Kansas. In 1968, when he went to Vietnam for the third 
time, a young mother of two--of three, really, couldn't take it 
anymore, and moved us to the Ozark Mountains in Arkansas, and 
she married a guy who did not like to work.
    And because of that, that was the first stage, the first 
time in our family history that we ever lived on government 
subsidies. And it wasn't because he couldn't work, it was 
because he figured out how to manipulate the system, how to 
declare himself insane so he could check himself in and out, so 
he could use that to further get subsidies from the federal 
government. I lived that way from the time I was seven years 
old until I left home at 17 years old.
    I remember the embarrassment very--I was the oldest, 
because my mother went on to have three more children with him. 
My oldest sister with him has spina bifida. She has had it 
since--she just turned 50 two weeks ago. Her daughter, oldest 
daughter, has spina bifida.
    I understand what you are saying, ma'am, and it is a 
terrible tragedy. I have lived that life. And I have also, as I 
have said, I have seen the way out. And I am not saying a lot 
of time just work a lot harder. But, you know, this--what we 
have had the opportunity to do in this country is to provide 
helping hands so people can get a start in life.
    I--for the first--until I was in eighth grade, had no 
running water. We lived on food stamps until the time I left 
home at 17. No indoor plumbing until I was in eighth grade. We 
moved houses. People thought my step-dad was in the military. 
It wasn't because of that, it was because he wouldn't pay the 
propane bill, he wouldn't pay the rent, he wouldn't pay for 
anything. And we moved from everywhere. We would drive cars and 
trucks, and I would sit on the fender, and hold the gas can, 
because the fuel pump wouldn't work. I have seen bad stuff.
    And I am also here today to tell you I have been in 
Congress now for seven months, and I came here not because I 
needed another job, because I wanted another career, it is 
because I wanted to make a difference. And that is what it is 
all about. You have to have people here who have truly 
experienced it, not read it in a book, not seeing it on the TV 
show, not watching a movie, some people that have actually seen 
what you can do in this country, still the greatest country in 
the world.
    It is the American Dream to come to a place where you have 
the opportunity to be as poor as you want to be or as wealthy 
as you want to be.
    I heard a guy say one time the bus leaves town every day. 
And I got on that bus and I never looked back. I am not saying 
it was not ups and downs along the way, but it has been a tough 
road. It has not been easy. There is no doubt that people that 
I know today think I got everything given to me, everything. 
And it was never that way.
    And I have never taken a dime from the federal government. 
I am not saying I am proud of that, but I just said it was my 
mission in life to do whatever I had to do, not to do that. And 
does that mean I am critical of those who do? I am absolutely 
not.
    But I am here to help people get a job, a better job, and a 
career.
    I will tell you what I think has happened in this country, 
is that we have kind of lost what that journey is. I worked 
three jobs--I mean, when I was young I would go to California, 
we would pick cherries, live in cherry fields and olive fields 
all the way through summer, come back. You know, I got married 
when I was 19 years old, worked hard, got an engineering 
degree, worked three jobs in college, all this kind of stuff.
    Chairman Yarmuth. You are a minute over your time, and you 
have got your five minutes coming.
    Mr. Hern. Okay, thank you. I will get the rest of that when 
I come back.
    Chairman Yarmuth. Thank you. The gentleman's time has 
expired. I now yield five minutes to the gentleman from New 
York, Mr. Morelle.
    Mr. Morelle. Thank you very much, Mr. Chair, for yet 
another important hearing that you are holding. And I want to 
thank all the witnesses for being here today and sharing your 
personal stories.
    In particular, Ms. Greer, I lost my daughter to breast 
cancer, so I am particularly grateful to you for demonstrating 
the courage to be here and sharing your story, as well.
    I think the testimony today shows how vital federal safety 
net programs are to so many people's survival throughout our 
country. And I would echo the comments of many of my 
colleagues. I am very familiar with the critical need for many 
of these programs, as Rochester, New York, which I represent, 
has an overall poverty rate of 33.1 percent, with the 
percentage of children living in poverty sitting at 52 percent, 
the second highest in the United States.
    And we need to recognize that individuals and families 
impacted by poverty are fighting, literally, for their 
survival. From affordable housing to food insecurity, from 
transportation barriers to adequate child care, the challenges 
are overwhelming. And more often than not, leave far too many 
people trapped in a perpetual cycle of hopelessness.
    So I want to take just a few minutes allotted to me to 
discuss the need to develop an integrated system of supports 
for individuals and families living in poverty, in crisis. And 
if I might quote Dr. King, aptly he once said, ``There is 
nothing new about poverty. What is new, however, is that we 
have the resources to get rid of it.'' That is what inspired 
some of the work we have undertaken in my district. I want to 
take a moment to just describe it, and then ask a couple of 
questions.
    In the summer of 2017, I helped convene over 40 individuals 
and leaders from health, human service, and the education 
sectors to discuss the current state of disconnected services, 
the poor outcomes that result, whether it--and whether a single 
integrated system of supports had the potential to deliver 
better results for people in our community.
    And out of that conversation, hundreds of people in our 
community--educators, social service providers, health care 
providers, and people impacted by poverty--have created the 
Systems Integration Project, and it recognizes the impact of 
structural racism, the need for trauma-informed care, and the 
need for community building. And it aims to provide 
comprehensive, connected supports that link program silos 
together, the fragmentation that we often see. And we hope to 
move people from crisis to self-sufficiency.
    So I do want to talk about the way we deliver services. And 
perhaps, Dr. Barber, maybe you could just reflect and give me 
some thoughts about how the current fragmentation, and the 
different silos, and people needing to move from program to 
program, and--to get eligibility and continue to fill out 
forms, to be moved around, have you seen the impacts of that? 
Is that something that troubles you? Is it something that the 
Poor People's Campaign has thought about, in terms of how 
better to deliver the actual services that we do have?
    Rev. Dr. Barber. Well, first of all, let me just say part 
of the problem is, yes, we have poor people chasing here and 
there. We have siloed these issues that can't be siloed. That 
is what we have said, poverty, systemic racism, systemic 
ecological devastation, a war economy must be seen together.
    But I want to also say some other concerns. And I am like 
Liz we have here. It is almost as though people are afraid to 
talk to poor people who would challenge the system. They would 
rather talk to poor people who say, ``Everything is just fine. 
We just work hard.'' That is not true.
    We are not talking about working hard. Living wages--we are 
saying folk ought to have a living wage if they work hard. They 
ought to have health care. We are saying what--we are saying 
that this is not some kind of government handout. This is the 
fact that 62 million people in this country work every day 
without a living wage. And if you just raise it to $15, you 
would have over $300-and-some billion going into the economy.
    It is amazing to us, as people of faith, and we sit here 
and look--and we are showing--this is showing the moral crisis: 
We never say this to business when they fail. When people fail, 
``We want to love you, and work hard. And we all got a story 
about poverty.'' When businesses fail, let's find the money. 
Let's find the money to lift them up. Let's give them 
government welfare, corporate welfare.
    And instead of talking about, wow, this article just came 
out, a moral economy would save taxpayers billions of dollars. 
If we had immigration reform, it would save and lift people up. 
If we had eliminate--we could eliminate child poverty, 
universal single payer would empower this economy. Free higher 
education. If we invested in true voting rights, if we had 
Pentagon cuts, if we had an end to mass incarceration, if we 
had invested to give people safe drinking water, job creation, 
living wages, climate justice.
    We are not--we are talking about lifting this country up, 
not about everybody giving us--I could tell the story of 
poverty, and I say to people who say that story--just because 
society failed you then doesn't mean it ought to continue to 
fail now.
    It is tragic in a society where our first constitutional 
duty is to establish justice and promote the general welfare--
the general welfare--that we would allow the injustice of 
poverty--43.5 percent of poor people are poverty--and people 
here who could teach this society. And we would walk away from 
our constitutional values, and walk away from our spiritual 
values that tell us that it is dangerous for a nation not to 
lift up the poor.
    I tell you that we have a deeper moral crisis, and this is 
why we need this Committee to go out and organize even more and 
more and more poor people until folk are willing to listen to 
the people who are hurt and beat up every day about what must 
be challenged and changed.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize Mr. Hern again. I didn't charge you--I won't you----
    Mr. Hern. I am back.
    Chairman Yarmuth--for the extra minute, but I will hold you 
to your five minutes this time.
    Mr. Hern. No, thank you, Mr. Chairman----
    Chairman Yarmuth. The gentleman is recognized.
    Mr. Hern. I appreciate it. And again, I want to thank the 
witnesses for being here today. And I--you know, Reverend, I 
agree with you 100 percent. We have got to listen, we have got 
to do more. I would--I have gone back and studied this a lot. 
It is one of the reasons I ran, because, you know, again, you 
heard my story.
    And I will abbreviate it by saying this: I had the 
opportunity--kind of fluke, how it happened--to get into 
McDonald's Corporation, or into the franchising program as an 
assistant manager. And I worked my tail off, created three 
jobs, learned how to be a computer programmer when I was in 
college. I was very blessed to get my first McDonald's 
restaurant in 1997. It was the last time I signed--that was the 
first time and the last time that I ever worked for anybody 
else, other than myself.
    The thing that is interesting about it is, as most know, 
entry-level jobs, that was not satisfying to me. I worked at 
minimum wage when I was dipping pickles at the pickle plant 
when I was 16 years old.
    The point being with this is I made it a mission in life to 
figure out how to get people accelerated, teach them how to 
work, teach them how to pay taxes, teach them how to appreciate 
things. And we have had a lot of folks that have come up with 
minimal education making $60, $70,000 a year. I don't--all my 
average wages are way above Oklahoma's living wage. We offered 
insurance. People have insurance. Long before Affordable Health 
Care. I think it is critical.
    I think what has happened in America, as I have looked back 
over the last 20 years, when you look at real wages in America, 
they are about the same as they were, while everything else has 
gone through the roof. Cars are doubled, houses have doubled. 
We have shipped those great-paying jobs that--for entry level 
and middle class overseas.
    And I think, if you look--regardless if you like President 
Trump or not, if you look at what has happened by bringing jobs 
back to America, that is what it is all about, bringing good-
paying jobs back to America, so that folks have the ability to 
transition off of the helping hand into a entry-level job that 
quickly accelerates into a middle-class job that can quickly 
accelerate into a career.
    Rev. Dr. Barber. You don't believe that should start with a 
living wage?
    Mr. Hern. You know, it is according to what the person is. 
If it is a person who has got kids----
    Rev. Dr. Barber. A human being that created by God. They 
shouldn't start with a living wage, if they are working 40 
hours a week?
    Mr. Hern. If they are 16 years old, living at home, that 
might be different.
    Rev. Dr. Barber. I am talking about--if they are 16, or 18, 
or 19, or 20, shouldn't they have a living wage?
    Mr. Hern. Sure.
    Rev. Dr. Barber. A living wage.
    Mr. Hern. If they are living by themselves, and yes. I mean 
I worked my tail off----
    Rev. Dr. Barber. They should have a living wage if they got 
two people in a house, but they should have a living wage if 
they----
    Mr. Hern. Well, again, we have to look at the numbers. You 
have got stats. I will look at the facts, as well. Again, I----
    Rev. Dr. Barber. I hope we can. I really want to talk to 
you, because I believe that down in there there is a heart 
somewhere.
    [Laughter.]
    Rev. Dr. Barber. I want to get with you brother. I want to 
get with you. Maybe you can save the other folk that just want 
to blame the poor.
    Mr. Hern. No, I don't blame the poor.
    Rev. Dr. Theoharis. Especially when wages have stagnated, 
especially when wages have stagnated for the past 40 years.
    Mr. Hern. Oh, sorry?
    Chairman Yarmuth. You control your time, Mr. Hern. You can 
do whatever with it. You can continue the dialogue----
    Mr. Hern. No, no, Mr. Chairman, I appreciate it. And again, 
I just want to thank you for the passion in this group, because 
it is something we all should be concerned about. And I know 
everybody is.
    And you came in here with the statement, Reverend, that 
said this should be a bipartisan issue. And I agree, 110 
percent, that it should be a bipartisan issue, and we should do 
everything that we need--we should look at the things we are 
doing to help folks rise out of that poverty when times are 
bad. We heard it from our folks on our side.
    And also we should look at how we get them--because, as you 
said, you want folks to get a job, and you want them to be 
moving forward, because it is not just about working hard. A 
lot of people work really hard. There is some bad things that 
happen out there, some bad things that happen. And how do we 
take care of them?
    And I have seen it firsthand. I have lived it firsthand. I 
have seen folks--as you all know, there are people who start at 
McDonald's that has had a tough life. I have listened to those. 
I have had folks who have had their wives killed, you know, and 
the list goes on and on. I have been there to help them. I 
don't go broadcast this, because that is what--you don't do 
that, as a person that is trying to help somebody, when you are 
in business.
    I am here now in a different role, a role to go back and 
represent my district and those folks who elected me, because 
they heard my story time and time again, and had time to proof 
it out. And so that is why I am here. I want to help.
    Mr. Chairman, I yield back my time.
    Chairman Yarmuth. The gentleman yields back. I now 
recognize the gentlelady from California, the Chairwoman of the 
Poverty Task Force in the House, Barbara Lee from California, 
for five minutes.
    Ms. Lee. Thank you very much, Mr. Chairman. Let me thank 
you and our Ranking Member for putting this very important 
hearing together today.
    And let me thank Bishop Reverend Barber. Let me thank 
Reverend Theoharis, and let me thank all of you for being here 
today, because you are truly bearing witness on behalf of the 
poor and the near-poor who are living on the edge in the 
wealthiest country in the world.
    Now, I want to thank you also for leading the Poor People's 
Campaign, and calling it a national call for moral revival, 
because that is what it is, and for all of your moral clarity.
    You remind me today of Dr.--another one of Dr. King's 
speeches, which he gave at Riverside Church, when he talked 
about society's three evils: poverty, racism and militarism, 
which still loom large today in our own country. Now, let me 
just mention a couple things.
    First of all, as someone who was on food stamps and public 
assistance, I know just how important your presence is here 
today, and how important your voices are. But let me tell you, 
when I was on public assistance, I was able to buy a house 
because of a government policy that allowed people on public 
assistance to purchase a home. I was able later to go to 
college, and it was because of government policies that 
promoted and allowed for affirmative action and the civil 
rights movement. I was allowed later, before coming to 
Congress, to establish and own a business. I had 450 employees, 
union workers, good-paying union wages, good-paying jobs. I was 
able to start my own business because of government policies 
that allowed for that.
    I received the opportunities through many years of struggle 
by so many people and so many organizations who forced our 
government to--the war on poverty--to establish policies that 
would provide those opportunities so that myself, as a young 
African-American black woman, would have some opportunities to 
achieve justice and parity. Now we see all of these policies 
being, unfortunately, rolled back.
    Many of you know that I have worked with a group of non-
denominational clergy members--we call it the Circle of 
Protection--to highlight and make recommendations on the 
intersection between racism and poverty. It is a document 
called Unity Declaration on Racism and Poverty.
    Mr. Chairman, I would like permission to insert this 
document into the record.
    Chairman Yarmuth. Without objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. Lee. Thank you. Because many of these recommendations 
incorporate many of the line items and the budget 
recommendations which you have presented in terms of the moral 
budget, we also must begin to repair the damage for the 
inhumane government-sanctioned institution of slavery, which 
continues to be manifested today in systematic and 
institutional racism.
    But your recommendations in the poor people's moral budget, 
it puts us on a path to closing these economic and racial 
disparities, not only for African-Americans, but for the 140 
million who are poor and who are low-wealth individuals.
    And so I thank you for putting forth a budget, and a plan, 
and a roadmap where we know we can do this: raising the minimum 
wage to a living wage; universal health care; federal 
investments in affordable housing; lowering the cost of 
prescription drugs; child tax credit, all of your 
recommendations are recommendations which this Committee should 
embrace.
    And so I wanted to ask specifically regarding one of the 
recommendations, the $350 billion in annual military spending, 
and what this would do if we were able to finally have the 
political will to look at the Pentagon budget, how this would 
begin to help us reduce poverty in America, and addressing the 
economic inequality which we once again see each and every day, 
which you all are fighting to ensure that we eliminate and end.
    Rev. Dr. Barber. Representative Lee, can I say something? 
If his time has run out, I hope we can get his back that he 
gave up.
    But anyway, we--first of all, we are taking--53 to nearly 
60 percent of every discretionary dollar is going to our 
militarism. Less than $.16 is going toward health care and 
infrastructure, the things that will lift us out.
    But there is another piece we have to add to this, and I 
want to bring this as a race piece. Liz and Callie and I talk 
about this all the time. In this country, every state that is a 
voter suppression state, there is a high poverty state, high 
child poverty state, lack of health care state, low living wage 
state. And guess what? The people who get elected, the racist 
voter suppression, they then turn around and pass policy to 
hurt mostly white people. Let that sink in this room. The 
people who use racialized voter suppression end up passing 
policy that hurt mostly white people, because they are more 
poor whites in raw numbers--not in concentration--than there 
are black.
    We have to--and if we don't get the voting piece right, we 
are never going to get people in these offices that will deal 
with the military issues and those kinds of things. So there is 
a direct connection between racialized voter suppression and 
the poverty that concentrates in people of color's lives, but 
also affects, in raw numbers, more white people than people of 
color.
    Ms. Lee. Thank you, Mr. Chairman. Is there a way we can get 
some time that our colleague gave back?
    Chairman Yarmuth. Well, he has got--if you want to go to 
the minute mark, you got another 30 seconds, because he went 
over a minute.
    Ms. Lee. Thank you, Mr. Chairman.
    Rev. Dr. Theoharis. So we will take it, because $.53 of 
every discretionary dollar going to the military, we are having 
welfare programs for the rich, for the Pentagon, for the 
military. And so I want- I want Callie to talk a little bit 
about what we could do with the money, what we are asking you 
all to do with the money.
    Ms. Greer. So----
    Chairman Yarmuth. How about--the gentlelady's time has 
expired. How about if, when I get my time at the end, I will 
let Ms. Greer answer that question.
    Ms. Greer. Thank you.
    Chairman Yarmuth. Fine. So now I yield five minutes to the 
gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman. And thank you for 
all being here. This is an important subject. And, really, what 
it comes down to is what works and what doesn't. We all have an 
interest in solving any kind of poverty problem, no matter how 
small it is. We have to ask the question: What works and what 
doesn't?
    Fifty years ago, President Lyndon Johnson declared a war on 
poverty. In the last 50 years we have spent trillions of 
dollars to alleviate poverty. What is the result? Our poverty 
rate when the War on Poverty started in 1966 was about 14.7 
percent. By 2014 it was about the same. Even after spending 
trillions of dollars in the last 10 years, spending on means-
tested welfare programs have increased from $430 billion to 
$742 billion. It has almost doubled.
    And we can attach the size of our heart to dollar signs all 
we want, we can claim that anybody who argues otherwise is 
immoral. I think that is unfair. You can argue it, but you 
can't argue the fact that it hasn't worked.
    But actually, in the last three years or so, since 2014, we 
have seen some decrease in poverty: 12 percent. But what 
changed? What changed? It is not the increase in spending, that 
has been continuous. Wage growth has increased. The economy has 
boomed. A 3.2 percent wage growth. By the way, the overwhelming 
amount of that has gone to the bottom quintile of earners. It 
does not go to the top. That is by the statistics. It is also 
more jobs than we have ever had to fill them.
    I would say things that don't work are policies that make 
it harder for the poor to survive.
    A carbon tax, for instance--we have been talking a lot 
about ecological justice. Well, what about a carbon tax that 
would raise energy prices? It would raise gas prices. Look at 
California. Look at Germany's experiment with their own form of 
a green new deal. They haven't reduced emissions, and they have 
raised prices on everybody. The rich can handle that just fine. 
They have got no problem handling that. The poor, they cannot 
handle that.
    Over-regulating housing markets, hampering development, 
that causes rents to rise. Just look at San Francisco. Look at 
New York. Again, the rich don't mind, but the poor do. It hurts 
the poor.
    Occupational licensing requirements, they can be terribly 
hard and burdensome on the poor. If you are trying to be a 
hairdresser, or just get into cosmetology, or become a plumber, 
it is more difficult, the more regulations you have. In Texas 
we just solved this. We just made it easier for anybody to get 
a good-paying job as a plumber. We are very proud of that.
    Any of you agree, I wonder, that Congress should actually 
increase payroll taxes on everybody across the board, from 
12.3, 12.4 percent to over 14 percent? I doubt any of you would 
agree on that, because that is an increase in taxes on 
everybody. It takes away from everybody. And I bet you would 
definitely not agree that that money should then be transferred 
to people in retirement who are millionaires. By the way, that 
is Social Security 2100, that is the Democrats' plan right now. 
I don't think any of you would agree with that.
    The method in which we have been delivering welfare 
payments isn't working, either. We have created perverse 
incentives and disincentives, well intentioned through our 
desire to help, to the trap people in these safety nets. And 
let me show you what I mean.
    For instance, in Texas there is a single parent of two on 
welfare and SNAP programs. They will end up taking a huge cut 
on their benefits if they even get a minimal raise. So, to 
flush this out, a single mom is desperately trying to provide 
her children with a better life. She works really hard. She 
pays it off. She is offered a promotion. But that raise comes 
with it--it will actually make her worse off than before, 
because she loses some of those benefits. So she has to turn it 
down. This is not a good policy. In Texas, this means you are 
actually taxing the poor at a 53 percent marginal tax rate. And 
in other states it can be as high as 104 percent.
    So let's talk about what has worked. Brookings says it is--
and this is a left-wing think tank--studies have shown that if 
you finish high school, you get a job, any job, and wait until 
21 to get married and have kids, you have an overwhelming 
chance of getting out of poverty. Seventy-five percent join the 
middle class, only two percent remain in poverty.
    Earned Income Tax Credits. The EITC does not punish someone 
for earning more. Its benefits continue, even as you make more 
income. This is bipartisan. We all agree on this. This is good 
policy. So it incentivizes people to improve their livelihood, 
while also maintaining that final--financial cushion beneath 
them. They don't fall off of a benefits cliff. So rather than 
being stuck at an entry-level job, they can keep making it.
    We also have to be focused on addressing the skills gap. 
All right. That is a huge part. We talk about building more 
capital for the poor. Education is a big part of that. Why 
don't we look at changing the Pell Grant program? I bet a lot 
of you would say that it is not always realistic for somebody 
to get a four-year degree. Spend that four years--maybe they 
have a family to feed. Why don't we make Pell Grants available 
for skills, or for trades? Shorter-term duration training?
    God, I wish I had more time to ask you all questions, 
because I do have a lot. But Ms. Fields, I want to end with 
this.
    Rev. Dr. Barber. Please read this--you haven't--please 
read----
    Mr. Crenshaw. Ms. Fields, I want to end with this.
    Rev. Dr. Barber. Please read it.
    Mr. Crenshaw. When you teach your kids, do you----
    Rev. Dr. Barber. Please read it.
    Mr. Crenshaw. Do you teach them--Mr. Chairman, if you will 
indulge me this one question, or----
    Chairman Yarmuth. Go ahead and get it out.
    Mr. Crenshaw. Okay.
    [Laughter.]
    Mr. Crenshaw. Thank you, Mr. Chairman.
    When you--you said you homeschooled your kids. I want to 
understand what values you teach them. Do you teach them to be 
responsible for themselves? Do you teach them that their 
actions matter? Or do you teach them that the system is working 
against them? Do you teach them that, no matter what they do, 
they can't thrive? I mean, what would you teach somebody if you 
loved them?
    Rev. Fields. Well, I definitely teach them personal 
responsibility. And even to add to that, where you are saying 
about trade, me and my husband both, even though I have a 
bachelor's degree, I also have a trade. My husband is a barber. 
He has a trade. We have lived the life they are saying with the 
living wages. I bought a house making $4.25 an hour. So we 
understand living on wages. But the way we got out of poverty 
is what you are saying, is we got trade. We went and got an 
education.
    And me and my husband talk about that all the time. If the 
government could make trade more accessible, you know, spend 
those federal dollars so people can sharpen their skills and 
get out--my husband just bought us a three-bedroom home, two 
full-bath home in Chicago being a barber, with a trade. He has 
a 10th grade education, and he did it with a trade skill. So 
those are the kind of programs that we should be advocating for 
our government to sharpen our skills, bring back those trade 
skills into the black community, so that we can rise above 
poverty. We can't do it with just a high school education all 
the time. We need trade. We need skills.
    Mr. Crenshaw. Thank you, and----
    Rev. Dr. Barber. Could I just say that----
    Mr. Crenshaw. Thank you, Mr. Chairman, and----
    Chairman Yarmuth. The gentleman's time----
    Mr. Crenshaw. It was a good conversation about solutions, 
thank you.
    Chairman Yarmuth.----has expired. Reverend Barber, I am 
sorry. I now yield five minutes to the gentleman from Nevada, 
Mr. Horsford.
    Mr. Horsford. Thank you very much, Mr. Chairman. This is a 
very important hearing today. I want to thank Reverend Dr. 
William Barber, II, as well as Reverend Dr. Liz Theoharis. It 
is good to see you. I know your brother. He does work with my 
wife, who is a professor at Columbia. But thank you for being 
here today, and for talking about the Poor People's Campaign 
and your vision for how we strengthen children, families, and 
communities, which is at the core of what this hearing is 
really all about.
    Thank you to my esteemed colleague, Congresswoman Barbara 
Lee, the Chair of the Poverty Congressional Caucus, for 
highlighting this issue, not just today, but for many years 
prior to today's hearing.
    Now I want to get right to it. Since I was sworn in on 
January 3rd of this year, the Trump Administration and my 
colleagues on the other side have attacked nearly every safety 
net program from every angle that they can think of. This after 
passing the jobs and tax cut scam of the last Congress that 
provided 83 percent of the benefits to the top 1 percent wage 
earners and biggest corporations in this country.
    And now on the backs of those individuals, because their 
tax cut adds to our federal deficit, they have proposed cutting 
SNAP by $220 billion, cutting Social Security by $84 billion, 
and other disability programs, cutting $1.5 trillion from 
Medicaid over 10 years, and a 10 percent across-the-board cut 
to TANF block grant.
    This Administration's most recent attack on safety net 
programs came by way of a proposed rule through the U.S. Office 
of Management and Budget that would change the way the federal 
government measures poverty, which is--has not been very well 
publicized, because this Administration does not want to bring 
attention to the fact that they are balancing their tax cut on 
the backs of poor people.
    Chairman, the Chairman and I sent a letter to the acting 
OMB director, expressing our deep concerns about this 
rulemaking change. And Mr. Chairman, I would like to enter that 
letter into the record.
    Chairman Yarmuth. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
      
    Mr. Horsford. I would also like to enter a article, ``Black 
Poverty is Rooted in Real Estate Exploitation'' into the 
record.
    Chairman Yarmuth. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. Horsford. The proposed rule would inevitably lower the 
income eligibility limits for safety-net programs that are tied 
to the poverty line, and will impose unfathomable hardships on 
families. The proposal would disproportionately affect many 
constituents in my home state of Nevada, including 425,000 
Nevadans that receive SNAP benefits, 633,000 Nevadans that are 
enrolled in Medicaid and SCHIP, and 3,000 children that are 
eligible for Head Start and Early Head Start programs that I 
can't get in because they want to cut the budget.
    I have young people and their families that are on a 
waiting list. You talk about investing in education, talk about 
investing in career and technical education. Their budget cuts 
the very programs that you propose to invest in.
    And it's personal, because it comes to the children, our 
families, and the communities. I come from a poor community. I 
grew up in a poor community, raised by a single parent. I lost 
my father to gun violence when I was 19. But for the support of 
programs like this, I would not be sitting here as a Member of 
Congress. So I have an obligation, like my colleagues who are 
trying to bring attention to this issue, to the priorities and 
the values of our budget, as the Speaker said.
    Ms. Kinsey and Alcocer, I listened to your deeply personal 
testimonies. Can you explain to us what you would have done, 
had you been kicked off of these safety net programs? How would 
you have been able to survive?
    Ms. Alcocer. As an undocumented person, first of all, most 
of us don't have access to any of these programs. Um, I just 
want to make that clear.
    The reason--and the way that our community is coping is 
making survival methods. I mean, we literally have to organize 
ourselves in a way that we are protecting our community and 
protecting ourselves.
    And like I said before, [speaking foreign language], there 
is times where our government even tells us that they don't 
have money to cover potholes. What are communities doing? They 
fundraise for cement and cover our own potholes.
    There are times where we are told that there is no lighting 
for our alleys. And what we are doing is that we are buying--go 
to Home Depot and buy the solar panels with lighting, and 
install them ourselves.
    These are the things that our community has to resource to, 
because there is a lack of will within our government to 
resolve issues that are very basic. The fact that we have to go 
to our community members when there is someone in need and say, 
``Hey, do you have a tomato, do you have a potato? Do you have 
some chicken so we can put a basket together for this family 
that is in need,'' it is something that we have to resource to.
    And there is--it is true. There are churches that do lend a 
helping hand. There are churches that are serving--giving food 
out on Sundays because they understand that there is a need for 
hunger in their communities (sic), but they also understand 
that they need to push the government to do more.
    Mr. Horsford. Thank you. It is a partnership.
    Ms. Alcocer. Exactly.
    Mr. Horsford. And we have to work together----
    Chairman Yarmuth. Thank you----
    Mr. Horsford.----to meet the needs of our people.
    Thank you, Mr. Chairman----
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlelady from Washington, Ms. Jayapal, for five 
minutes.
    Ms. Jayapal. Thank you so much, Mr. Chairman, and thank you 
to my friend, Barbara Lee, for her unwavering leadership on 
lifting up poverty across this country, and the urgency of now, 
the urgency of addressing this issue now.
    But most of all, I am grateful to you, from the Poor 
People's Campaign, who are here, bringing the people's voice to 
the people's house. I am grateful for your courage and for your 
moral clarity, which came through so clearly in every one of 
your testimonies.
    And your organizing reminds us that poverty is not 
inevitable. It is caused by human-created structures and 
immoral policies. You remind us that we can lift up a whole 
society to create community prosperity. And you remind us that 
we can and we must have health care for all people. You remind 
us that no human being is illegal. You remind us that mass 
incarceration is dangerous, racist, and completely avoidable, 
that war and a giant military budget are moral outrages, and 
that, most importantly, you remind us that those most directly 
affected by poverty and oppression are actually the ones best 
equipped to lead us forward.
    As your people's moral budget report so eloquently states, 
poverty is a willful act of policy violence that leaves over 43 
percent of the population poor or low-income.
    So thank you for being here today with us. And thank you 
for your clarity and your courage.
    Let me start with you, Ms. Greer. I could not listen to 
your story without feeling the same tears that you were-you 
were feeling, nothing like what you were feeling, but feeling 
some piece of that. That painful story of the loss of your 
daughter, what you had to go through--and you said something 
very powerful. You said we shouldn't have to ask for this. We 
shouldn't have to ask for health care. It is a right.
    Hearing your personal story about the immense suffering of 
your family, and so many other families across the country that 
are experiencing not having health insurance, this basic right 
of health insurance--as you may know, I have introduced a 
Medicare for All bill for universal health care because I 
believe this is a human right.
    But one of the things that I am confronted with, with 
critics constantly, is people who say that this would be too 
expensive, that the United States can't do universal health 
care because it would be too expensive. Can you give me 
guidance on how you would respond to that, and what you want me 
to say every time I hear that?
    Ms. Greer. I would say to you the federal cost for 
expanding Medicaid in those--in 14 states will be about $25 
billion in the first year. That is about the same amount the 
Pentagon hands over to Boeing every year.
    Okay, one more time.
    Rev. Dr. Theoharis. That is right.
    Rev. Dr. Barber. Teach us.
    Ms. Greer. The federal cost for expanding Medicaid in 14--
not one--in 14 states would be about $25 billion in the first 
year. That is about the same amount that the Pentagon has owed 
to Boeing every year.
    Ms. Jayapal. Thank you. Thank you for that. And you have 
transitioned me to my next question. I have questions for every 
one of you, but I am not going to have time. But my next 
question is for Mr. Overfelt.
    I have been trying to take on with some of my colleagues 
the outrageous amounts of money spent on military defense. And 
it seems like this increasing spending on war and military 
defense is often seen as something you cannot even challenge, 
and that, if you challenge it, you are somehow unpatriotic.
    Mr. Overfelt, you are a patriot, a true patriot who has 
actually put your life on the line and served in the military 
yourself. Many of the people who advocate for increased defense 
spending have not done that. So can you tell me how we should 
respond to the charge that it is somehow unpatriotic to try to 
cut our spending on military defense and endless wars in order 
to have a better world? But yes, also to transfer some of those 
funds to the things that we really need to have a safe and 
secure nation and world.
    Mr. Overfelt. Well, I flew in here from Kansas City. And 
when I flew in, I flew--I could see the Pentagon out the 
window. And I saw right next to the Pentagon, I saw a building 
with the name Boeing on it. And right next to that, I saw a 
building with the name Lockheed Martin on it. These are--these 
entities are--go hand in glove. The Pentagon acts as a siphon 
towards military contractors, I siphon of taxpayer money that 
could be used to help us in our communities.
    I want to say that when we talk about American foreign 
policy, we need to understand the context in which it operates, 
which is the flow of resources from the southern hemisphere to 
the northern hemisphere. That is not to keep us safe, that is 
in the national interests of corporations, of transnational 
corporations, and to ensure their profits. So we are spending 
taxpayer money to subsidize transnational corporations, not to 
keep the American people safe.
    Chairman Yarmuth. Thank you. The----
    Ms. Jayapal. Thank you. And, Mr. Chairman, just quickly, 
before I yield back, let me say Boeing is in my state, and it 
used to be the kind of company that actually supported living-
wage jobs, unionization, good-good working-class jobs. That is 
not the case today. And I thank you for raising that up.
    And let us just imagine a world where we could have 
corporations who understand that they can only be successful if 
they are lifting up the communities and the people that are--
that make up those corporations, that that make up those 
communities.
    Thank you, Mr. Chairman. I yield back.
    Chairman Yarmuth. Thank you, the gentlelady's time has 
expired. I now recognize the gentleman from New Jersey, Mr. 
Sires, for five minutes.
    Mr. Sires. Well, good afternoon, and thank you for being 
here. I made sure I stayed here to listen to every one of you 
before I had to go to my office.
    Let me give you a little bit about my background. I 
represent the northern part of New Jersey. I represent cities 
like Jersey City, portions of Newark. I represent the town of 
West New York, the city I live in. And just to give you an 
idea, that is--it is one square mile, and we have 53,000 
people. Ninety-three percent of the student body in that town 
is Hispanic. So that tells you that it is not a wealthy 
district.
    We depend--I was--I am a former mayor of that town. As a 
mayor, I depended on federally-funded clinics to be able to 
help these people. If we didn't have that, I don't know what we 
would have done, even just to get the shots so they could 
attend to school. That federally-funded clinic was very, very 
important. That is not to mention all the other--diabetes, 
which, in minorities, is a big, big problem. So federally-
funded clinics and federally-funded programs, I think, are 
extremely important to help people get out of poverty.
    I just visited a housing complex on Friday in Newark, New 
Jersey. I mean, it is just incredible, some of these conditions 
that people are living in. They are trying to do something 
about it.
    And we have a lot of problems with these formulas. You 
know, this poverty formula goes back 40 years, and only a 
little bit for inflation. But there is also a great area that 
you can help people. They seem to fall off that formula to 
assist the people.
    And not to mention--and to mention the amount of veterans 
that we are getting that have no place to live, no housing for 
veterans. After World War II there was an effort to help the 
veterans. I am hopeful that in the future we can have the same 
kind of programs so we can help veterans.
    So when you talk about poverty, you know, I live it. I grew 
up in that town. I came to this country when I was 11 years 
old. My father and mother had a fourth and fifth grade 
education. But some of these programs are just necessary for 
people to take on the next step. Housing, affordable housing, 
low-income housing, I think, is a priority. And I just want 
from you to tell me which of those programs you think is the 
best to improve, so we can get some decent housing for some of 
these people.
    Rev. Dr. Theoharis. So, I mean, there are quite a few 
programs that we need. I mean, we need rent subsidies, we need 
to build more public housing. We need to stop the 
criminalization of people who are homeless.
    So it is--so I think how we take these issues in the 
Campaign is that we see them all connected. And we need to 
raise wages, because that is a housing issue. We need to ensure 
medical care, because that is a housing issue. We need to fund 
education and health for our veterans, because that is a 
housing issue. That we need to build up Head Start, because 
that is a funding--a housing issue.
    All of these programs that you all have power to fund, we 
need--when people talk about the question of wages and then 
losing your eligibility for some of these programs, we need to 
raise eligibility and raise wages. We should not be talking 
about lowering eligibility of poverty programs, of housing 
programs. We shouldn't be talking about attaching work 
requirements to housing programs, to food programs.
    Mr. Sires. You know, talk about Head Start. One of the most 
successful programs that I saw is when we contracted with Head 
Start to take care of the children after they get out of 
school, what they call their wrap-around program, because that 
gave the ability of the parents to go and get a job and work, 
they know that their children were being taken care of. So 
those are the kind of programs that I think would help.
    Rev. Dr. Theoharis. And Head Start has this piece on the 
maximum feasible participation of people who are poor. It is a 
community jobs program. It is a community health program. It is 
a- a interlocking program.
    But Kenia had some insight.
    Ms. Alcocer. Housing----
    Rev. Dr. Barber. Poor People's Campaign--out of the first 
Poor People's Campaign program is because preachers and 
everyday people came to this body, because they heard what the 
Lord said about the homeless and housing. That is a part of the 
Poor People's Campaign. Yes.
    Chairman Yarmuth. Very, very briefly, please.
    Ms. Alcocer. Well, one of the things that I want to say is 
public housing is very important. People living in public 
housing are----
    Mr. Sires. Decent public housing.
    Ms. Alcocer.----decent public housing are only paying 30 
percent of their income into homes. People who are paying 
market rate rent today are paying 60 to 70 percent of their 
income into housing.
    Mr. Sires. Absolutely.
    Ms. Alcocer. That means that sometimes we have to stay up 
at night, figuring out what bill we pay, if we can buy milk for 
our children, and if we are going to be able to pay our rent. 
That is what we need, we need to be able to pay only 30 percent 
of our income into housing.
    Mr. Sires. Thank you. Thank you, Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize Mr. Stewart for five minutes.
    Mr. Stewart. I thank the Chairman and Ranking Member, and 
apologize to you and other members and the witnesses for not 
being able to be here earlier. Other hearings and some I had to 
chair, and I just wish I could.
    I understand it has been a very interesting hearing. I 
don't know that I have been to a hearing where we have had 
quite so many witnesses; I hope you all have had a chance to 
express your views.
    And I want you to know that I think we have common goals. I 
don't think there is anyone in this room who doesn't have a 
desire to lift people up, to help them live productive lives, 
to help them feel like the government wants to make their lives 
easier, if possible, and not harder. I think the concern I have 
is sometimes some people think government is the answer. 
Sometimes they think it is the only answer. And we know that 
there are other pieces to this puzzle. And I would like to 
spend a few minutes talking about some of those, if we could.
    Again, recognizing government is not the only source of 
anti-poverty spending, I love these statistics, some of these 
facts. America is the most generous nation, I think, the world 
has ever seen. And we should be proud of that. We should 
recognize that. $410 billion in 2017 Americans gave to 
charitable organizations. There is not another country that 
comes even close to that.
    In some of my writing, I have had a chance to analyze that. 
We are a very generous people. Interestingly, more than a 5 
percent increase from the previous year. So we are not becoming 
less generous. In many ways we are becoming more generous. And 
I am grateful for those people who participate in ways like 
that.
    Anti-poverty programs, they don't just rely on government 
funding, and we are grateful for that, for these other people 
that are generous. Being from Utah--most of you don't know 
that, it is not something you would know, but I am from--Salt 
Lake City is my district, and a beautiful city, and it is, 
obviously, the headquarters for the Church of Jesus Christ of 
Latter Day Saints. And they are a great example, I think, of an 
organization that is involved in trying to lift people up and 
to help them.
    They are not the only example. There is many other faith-
based organizations. There is hundreds or thousands of them who 
also do great work. The Church of Jesus Christ, I think, is a 
good example of it, though. They work in employment services, 
they work in food assistance, the Bishop's Warehouse, 
partnering with other organizations. I have been to the food 
pantries and seen the great work they do. They are not just in 
Utah, by the way, but throughout the country and, frankly, 
throughout the world. Family services, free courses in 
education, and finding a better job. I mean, the list goes on.
    Pastor Mahan, I guess I would ask you, in your background 
there, in your experience, how important are these community 
and faith-based organizations in helping combat poverty, and 
helping do as we all want to do, and that is lift people and 
help better their lives?
    Pastor Mahan. You have to engage them. Thank you, sir. You 
have to engage them. Because anybody in this room that has been 
a part of a program, a government program, whether it is a 
government school, whether it is a government housing program, 
whether it is a government food program, we are being 
disingenuous if we lift those programs up like they are 
blessings all the time. There is a lot of churches that don't 
want to be involved in government stuff, just because it smells 
like government.
    It is like we are just going to throw money at this thing, 
regardless of the values as being, you know--you guys said it. 
There is values behind budgets, but there is also values behind 
programs. And a lot of times they don't want to engage because 
of the values that come behind the money. It is like a Trojan 
horse. Yes, we are going to bless you with money and housing, 
but yet we are going to give you all of these values that are 
against what we believe, and how we raise our families.
    And so you have to engage the churches and, really, all 
faith communities. You have to engage them on how to reach 
their own people. I think it would be a huge step forward.
    Mr. Stewart. And I am going to dive down on that just a 
little bit. A lot of times we talk about money. And you 
obviously can't do much without financial resources. It makes 
it very, very difficult not to have, you know, as I said, the 
resources to fund some of the things.
    But there is another element to that, and that is the 
volunteers, that is people who are willing to, hey, I will be a 
big brother. Hey, I will work at the homeless kitchen. Talk a 
little bit about that, would you, Pastor? And how important are 
volunteers to your community and the service you are trying to 
provide----
    Pastor Mahan. Yes, in our community we just--the mayor just 
gathered all the churches together--it is 20-some pastors--and 
he said, ``If anything goes wrong in this city, everybody knows 
that it is going to be you all that does the brunt of the work 
of fixing and getting people out of this crisis.''
    And so, yes, the churches is critical, and putting their 
hands to the plow. Training the churches to get engaged with 
the schools, training the churches to get engaged at the 
governmental levels, the school board levels, these are 
critical pieces. Because, again, they don't know about what is 
going on in this room. All they know is that we care about 
people. But we are not going to care about people and sacrifice 
our values because the government says that we need to because 
we won't get the money.
    Mr. Stewart. And that is a fair thing to--you know, to 
expect. It would be unfair for someone to be compelled to do 
something that they don't believe, just to have government 
assistance. We could go on.
    But, Chairman, my time is out. Thank you.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from California, Mr. Panetta, for five 
minutes.
    Mr. Panetta. Thank you, Mr. Chairman, Ranking Member 
Womack, and, of course, all of the witnesses for being here, as 
well as your preparation to be here. Thank you very much for 
your time, as well as your expertise on these topics.
    I am sure there have been a number of questions asked that 
deal with a number of areas that I wanted to talk about, but I 
am just going to kind of narrow it down. And if I am limited in 
that sense, that is fine. And if you have talked about this, I 
apologize. But I want to talk about affordable housing, and how 
that affects people put in situations and into poverty.
    And in my district, on the central coast of California, 
especially when it comes to renters, what you are going to see 
is about 29 percent of all renters--that is about 31,000 
households--are severely cost burdened, as it is called. 
Basically, then, what that means is that they are paying more 
than 50 percent of their income to housing costs and utilities. 
And so I was wondering if any of you could speak about the high 
cost of housing, and how that drains the pockets of low-income 
families, and how that contributes to homelessness.
    And go ahead, if Drs. Barber and Theoharis, could maybe 
talk about----
    Rev. Dr. Barber. Let Kenia start, because----
    Mr. Panetta. Please.
    Ms. Alcocer. Just to let you know, I work in the city of 
Los Angeles. I am, with Union de Vecinos, which is a tenant 
advocacy organization. We are with the LA Tenants Union. And 
part of my job and my work every day, it is to go into the 
office and see people that are going through eviction 
processes, not just in the city of LA. I have folks coming from 
Long Beach, from Orange County, from San Bernardino, from 
different parts.
    And the issue of housing, it is very, very ingrained in the 
fact that there is no safety net when it comes to housing, 
unless you are in public housing, or--because even section 
eight you can lose, right?
    So one of the things that I think it is very important is 
that we have to talk about rent control. There needs to be a 
cap on these rental markets. We need to make sure that we are 
doing something about it. And communities have been organizing. 
But the reality is that all of these corporations, and all of 
these land owners, and homeowners lied. We tried passing Prop 
10 last year. That would have allowed us to have a statewide 
rent control that would have allowed communities to feel safe.
    In Boyle Heights our community is being gentrified. There 
is high investment that is coming into our community, but it is 
not for our community. Our community is being driven out of 
Boyle Heights into San Bernardino County, where we have seen 
that it is an under-developed county. So part of the work that 
we need to do, it is to make sure that, when we are investing, 
we are investing in the actual community that lives in that 
community, and not pushing those communities out.
    Rev. Dr. Barber. We have to have an increase in investment 
infrastructure in impoverished communities. But we always have 
to connect. It is interlocking injustices. There is not one 
county in the United States where working at a living wage--at 
a minimum wage job 40 hours a week, that you can afford a basic 
two-bedroom apartment. In most places you have to work plus-80 
hours, plus-80 hours.
    And from a moral perspective, a Christian perspective, 
poverty, housing, immigrants' rights are the values of faith. 
They are the values. I am a pastor. I didn't want to talk like 
this. But since I am a pastor--I have been a pastor over 30 
years. I have 500 years of ministry in my family, as pastors. 
Our church has built homes for low and moderate-income people. 
We house senior citizens. We have programs for the poor. But 
pastors also must be prophets, like Jesus was, and challenge 
the system. And all the homes we built has nothing to do with 
people not getting a living wage. That is like government 
policy.
    And I just want to say it to this Committee again and to 
the people here. Slavery was a government policy. The lack of 
civil rights was a government policy. The lack of living wages 
is a government policy. The lack of housing is a government 
policy. So to say weak government is bad is ridiculous. We are 
here in the government.
    It--what the problem is, when you have a government that 
pushes for the few, and caters to Wall Street, and caters to 
the greedy, and does not care for we the people--and to suggest 
that 43.5 million people in the--I mean 43 percent of this 
country, 140 million people, if they want to--I am going to 
keep saying it like a broken record, that if they just loved 
and got charity from the church when the government created the 
poverty, then you are going to ask the church to fix the 
poverty? No.
    The church should be challenging the government, just like 
we challenged the government over slavery, just like we 
challenged the government over the lack of women's right to 
vote, just like we challenged the government over civil rights. 
We should be prophetic and challenge for a policy shift that 
could lift people. And to not do that is, at best, theological 
malpractice. At worst, it is heresy.
    Mr. Panetta. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlelady from Minnesota, Ms. Omar, for five 
minutes.
    Ms. Omar. Thank you, Chairman, and thank you, Congresswoman 
Barbara Lee, for your championship in championing this 
particular issue.
    I am a little frustrated, because I heard a lot about love. 
And one thing that I know is it is not because of the lack of 
love that we are not able to feed our children. It is not 
because of lack of love that we are able to house people. It is 
not the lack of love that we are unable to save people from 
dying because they don't have health care. It is not because of 
lack of love that you were able to finish college because you 
got help with child care.
    Love has nothing to do with this. And if you want to bring 
love into this, you got to bring radical love, because radical 
love means that we radically love every single person within 
our communities to make sure that we are providing for them the 
basic rights as humans. That's what love is. And that's the 
godly thing to do.
    So if we want to talk about faith, we also have to remember 
that we can't pray our problems away. You can't pray for your 
children to be fed so you are not crying because they're crying 
and they can't go to bed. You cannot pray for your medical 
bills to disappear. You cannot pray for the mold to stop 
poisoning your children in the classrooms.
    The other thing that frustrates me is people who have 
experienced poverty, who have gotten the straps for their 
bootstraps, who sit and talk about how we shouldn't do anything 
for the next person. See, as someone who knows severe poverty--
I lived in a refugee camp on the floor, no water, nothing. And 
I hear somebody say here in the United States they are fine 
with their grandparents not having running water. And that is 
supposed to be okay? Or we hear someone say it was a choice 
made up to me to have my children and not be like the other 
black people who get to have children out of wedlock.
    We don't get to have those kind of conversations. The 
conversations we get to have is how we are responsible for 
fully funding our schools so all of our children have the 
opportunities we have as we sit in this room. We get to talk 
about the kind of opportunities we have as government to make 
sure health care is provided to everybody so that we don't have 
people dying in the United States because they can't afford 
insulin.
    The conversation we get to have is making sure that there 
are no children, no children going to sleep hungry or being 
shamed in classrooms and in lunch rooms because their families 
don't have enough money to pay for their lunch.
    The conversation we get to have about the kind of poverty 
we have in this country, is the kind of poverty that says it is 
okay for us to take photo pictures with veterans, and be okay 
with the fact that they are sleeping on the streets here in the 
United States.
    So as an immigrant, as someone who came to this country 
hearing about American exceptionalism and prosperity, I am 
appalled that we get to sit here and have conversations as 
Americans about being the most charitable country in the world, 
and not being charitable enough to house our homeless, feed our 
children, care for our veterans. What is charitable about that?
    So, I ask you. The kind of systematic barriers that exist 
in prosperity, that is the conversation we should be having.
    Rev. Dr. Barber. And----
    Ms. Omar. And so I want you guys, for the little bit of 
time that I have, to talk about the systematic barriers that 
exist in creating prosperity, and what it means for us to 
remove those so that all of us could have the prosperity that 
is guaranteed within our Constitution.
    Rev. Dr. Barber. I want----
    Chairman Yarmuth. Since the gentlelady's time is basically 
expired, why don't you address it to one person----
    Ms. Omar. Yes.
    Chairman Yarmuth.----and then let that person respond.
    Rev. Dr. Barber. I was going to yield to Savannah. But 
Savannah, I tell you what to do. I want you to hold my hand. 
Because we came here to have a real conversation. We didn't 
come here to talk this mythology and foolishness about, you 
know, I grew up in poverty and therefore I have just worked 
hard and got--that is not what we came here to talk about. We 
have a budget. If--you got your budget? Hold it up, Liz. I want 
the nation--I am going to speak to America now. We want--I want 
to see the front of it.
    Where your treasure is, that is where your heart is. We can 
talk all day long about a love, and where your treasure is, 
where your heart is. And justice requires not just praying and 
going to church, but it requires justice. Jesus said that 
people who engage in religiosity but do not care for justice, 
he called that hypocrisy. So let's talk about investment. Let's 
talk about barriers.
    Love in a democracy, we would be investing in democracy and 
equal protection under the law. That is what is in here. It 
would be investing in domestic tranquility, investing in an 
equitable economy, fair taxes, raised income. It would be 
investing in life, and health care, and full health care for 
everybody, and equal treatment.
    It would be investing in our future, investing in early 
learning. Childcare helps the K through 12 higher education, 
inclusion for all undocumented youth. HBCUs investment, and 
tribal school investment. And love would be investing in the 
planning, access to clean water and sanitation, addressing 
climate change through clean energy. Love, real love and 
justice, would be investments in peace and common defense, 
ending the culture of war, reducing military spending, ending 
militarism at home, eliminating militarism and immigration, 
eliminating militarism and policing and mass incarceration, and 
ending easy access to firearms.
    We came here with a plan, not just with partisan mythology. 
We came here with a plan to challenge both Democrats and 
Republicans. But it seems like one side we really got to 
challenge--but we are going to work on everybody, because we 
need a plan, because the 43.5 percent and 140 million people, 
their backs are against the wall, and they are dying at a rate 
of 250,000 per year.
    Ms. Omar. Thank you, Reverend Barber. We are going to get 
the radical love that Jesus preached. So, thank you.
    Chairman Yarmuth. I thank--the gentlelady's time has 
expired.
    And as we mentioned earlier in the--at the beginning of the 
hearing, your budget and plan is part of the formal record.
    Under normal circumstances, the Ranking Member and I would 
now have 10 minutes each to use as we saw fit. We are about to 
have votes called on the floor. So, the Ranking Member and I 
have just agreed to spend just a small portion of our time 
closing the hearing.
    Mr. Womack. So----
    Chairman Yarmuth. I recognize the Ranking Member.
    Mr. Womack. I thank the Chairman. It has been a long 
hearing, and we have heard a lot and we have learned a lot. I 
think the common thing that we have learned is that we have a 
poverty issue in our country. We have had a poverty issue for a 
long time. We have done a lot of things, spent a lot of money 
trying to address poverty issues.
    The challenge for the Congress, which is the, I guess, the 
final arbiter of these issues, is to figure out how much we 
have to spend, what programs are most meaningful and beneficial 
to arrive at the outcomes that can address the root causes of 
the problem, and allocate those resources accordingly, in a way 
that, with proper oversight, that we can get the very best 
return on that investment that we can.
    That is what the taxpayers of our country ask of us, is to 
make sure, as the people who hold the purse strings, to ensure 
that the money that is going out is being spent in a wise and 
productive fashion.
    There is not a person on this dais that does not want to 
see every single person in this country lifted out of poverty 
to become productive in their lives, to make really, really 
good personal decisions, to really live that American Dream. 
But there are a lot of different opinions as to exactly how we 
approach that.
    I liked what my colleague, Bill Johnson, said at the very 
beginning about the importance of the father in the household. 
And we have got too many single-parent households these days. 
We can't legislate that. But we can have it as a goal for this 
country to improve the family circumstance in such a way that 
we can help our young people get that education, make those 
decisions that break, if you will, that cycle of poverty. And 
that is what I hope to see out of this.
    Now, there have been some references made out of defense 
spending today. And as you heard in my opening remarks, I am a 
30-year veteran with a deployment under my belt in support of 
the national security of this country. And I am a strong 
advocate for the men and women who, on a voluntary basis, put 
their hand up and say they will go anywhere, any time, under 
any circumstance, and fight for something greater than 
themselves.
    It was mentioned by one gentleman on the panel today that, 
when you fly into Washington, you fly over the Pentagon, and 
then you fly over names of major defense contractors. Let me 
also remind you that you fly over Arlington National Cemetery. 
And those headstones that I see out there, and those crosses 
represent something to me. And the way that we can continue to 
honor the commitment and the sacrifice and the hardships 
suffered by well over a million people who have died in defense 
of their country, the way we honor them is to make sure that we 
protect the principles espoused in the founding of this country 
throughout the rest of history, so that we can give the rest of 
society an opportunity to pursue the American Dream that has 
been given as hope for all of us.
    So with that said, Mr. Chairman, I don't have any questions 
for the panel.
    I know we are about to head to the floor for votes, and I 
want to thank everybody for coming today and telling your 
personal stories.
    And I will yield back the balance of my time.
    Chairman Yarmuth. I thank the gentleman, and I yield myself 
time for my closing remarks.
    You know, I agree with the Ranking Member, that the over--
without question, the goal of this government should be to lift 
as many people out of poverty as possible. It is not to support 
as many poor people as possible. That should be our objective. 
But reality is that we live in a different world.
    And I--you know, I empathize with all the stories that we 
have heard today from some of my colleagues about their 
background and how they came up in poverty. We are in a very 
different world when--from when those gentlemen were describing 
their upbringing. And it is going to get even tougher in this 
world.
    The technology revolution that we are seeing now, that we 
are going to continue to see, is going to disrupt far more 
lives than anything we have ever experienced in this country. 
And we are going to be in for a rough stretch. And it is not 
just going to be poorly-educated or lesser-educated people. It 
is going to be CPAs and radiologists and a lot of people who 
spent a lot of money getting an education, and were working for 
high wages, and their jobs are going to be drastically changed, 
as well.
    So I am very conscious of what we need to do, as a country. 
I don't have the answers, but I know what we are going to have 
to cope with. And we are going to have to make sure that 
everybody in this country is supported to the extent that they 
can be productive as possible.
    I don't think there is any greater need in this country 
right now for our long-term prospects than early childhood 
education. Because if we don't make sure that the next 
generation of Americans, that younger generation of Americans, 
has the opportunity and the resources to make--be productive 
citizens, then we are arguing over nothing now, because there 
won't be a tax base for us to argue about how to spend. We 
won't have people--when the Baby Boomers retire and pass on--
and I am one of those--and then the next generation--if we 
don't make sure that the youngest generation and the generation 
after that are productive citizens, where is the tax base going 
to be?
    And I have said this to a lot of white people I have had 
arguments with. If we don't make sure non-white Americans make 
a lot of money and pay a lot of taxes, then white America is 
not going to retire, not going to be able to retire, because 
there won't be any resources.
    So this is not a simple issue. Just like everything else we 
deal with on the federal level, it is really complicated. 
Poverty is not an easy issue.
    The fact remains we have the greatest disparity between the 
wealthiest Americans and everybody else that we have ever had, 
well, in the last 100 or so years. And we have greater 
disparity in wealth and income in this country as most--any 
other industrialized nation.
    And I look at things like the Earned Income Tax Credit, a 
great program, has lifted a lot of people out of poverty and 
supported a lot of people. And Democrats love it, and some 
Republicans love it. But you know who loves it more than 
anybody? Corporate America. Corporate America loves it because 
it helps them. It allows them to pay lower salaries and--
because the EITC is supporting their workers. And that is the 
same thing with Medicaid in a lot of cases, and it is the same 
thing with SNAP. These are all, to a certain extent, subsidies 
to corporate America.
    I once had a conversation--it was my first election--with a 
McDonald's franchisee, and we were arguing about minimum--
raising the minimum wage. Then it was $5.25. And he said how--
what a difficult imposition that would be on him, if he had to 
raise the--if we raised the minimum wage on him.
    And I said, ``You know, what would you say if I came to you 
and I said, 'You know, I have got the greatest business concept 
that ever came down the pike, and it is just absolutely 
foolproof. The only catch is that I have to have people working 
for me for nothing.' What would you say?''
    He said, ``I would say you are insane.''
    I said, ``In today's world''--that was 2006. I said, ``In 
today's world, what is the difference between $5 an hour and 
nothing? Not much.'' And here we are, 13 years later, and we 
are at $7.25.
    Now, the reality is, I understand not many people are 
making $7.25, but there are a lot of people out there making 
$9, and $10, and $9 and $10 are not living wages, either. And 
you all know that extremely well.
    So, there--there is a lot of institutionalized--there are a 
lot of institutionalized issues that we have to deal with, as a 
country. Congress can't deal with all of them. But the fact 
remains that we have an obligation. I always say government is 
the way we recognize our--we organize our responsibilities to 
each other.
    And one of those responsibilities is to understand that we 
have a capitalistic system that ends up with winners and 
losers. And the losers are not necessarily losers because they 
didn't try hard, because they weren't talented. They were 
losers because there are naturally winners and losers in 
society.
    And it is the government's obligation to make sure we do 
everything we can to make sure they have a decent standard of 
living, and then give them the support to rise out of poverty 
and become winners at all levels.
    So, with that, I would say we got a lot of work to do. The 
Poor People's Campaign has done a lot of work and has a lot of 
work to do.
    And I want to thank everybody here for focusing on a very, 
very important national issue. Thank you for your time, your 
passion and, most of all, bringing your experience to the 
Committee and this Congress.
    And with that, with no further business, the Committee is 
adjourned.
    [Whereupon, at 1:28 p.m., the Committee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
</pre></body></html>
